<html>
<title> - A MODEL FOR SUCCESS? MONITORING, MEASURING AND MANAGING THE HEALTH OF THE CHESAPEAKE BAY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





 A MODEL FOR SUCCESS? MONITORING, MEASURING AND MANAGING THE HEALTH OF 
                           THE CHESAPEAKE BAY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 20, 2004

                               __________

                           Serial No. 108-221

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-635                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
TODD RUSSELL PLATTS, Pennsylvania    JOHN F. TIERNEY, Massachusetts
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
EDWARD L. SCHROCK, Virginia          STEPHEN F. LYNCH, Massachusetts
JOHN J. DUNCAN, Jr., Tennessee       CHRIS VAN HOLLEN, Maryland
NATHAN DEAL, Georgia                 LINDA T. SANCHEZ, California
CANDICE S. MILLER, Michigan          C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
MICHAEL R. TURNER, Ohio              ELEANOR HOLMES NORTON, District of 
JOHN R. CARTER, Texas                    Columbia
MARSHA BLACKBURN, Tennessee          JIM COOPER, Tennessee
PATRICK J. TIBERI, Ohio              BETTY McCOLLUM, Minnesota
KATHERINE HARRIS, Florida                        ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 20, 2004..................................     1
Statement of:
    Bahner, Lowell, director, Chesapeake Bay Office, National 
      Oceanic and Atmospheric Administration.....................    26
    Boesch, Donald F., president, Center for Environmental 
      Science, University of Maryland............................    87
    Hanmer, Rebecca, director, Chesapeake Bay Program............     6
    Hofmann, Eileen, the professor of ocean, Earth and 
      Atmospheric sciences, Old Dominion University..............   104
    Murphy, W. Tayloe, Jr., Secretary of Natural Resources, 
      Commonwealth of Virginia...................................    19
    Phillips, Scott, Chesapeake Bay Coordinator, U.S. Geological 
      Survey.....................................................    36
    Pierno, Theresa, vice president for environmental protection 
      & restoration, Chesapeake Bay Foundation...................    76
    Porter, Frances W., executive director, Virginia Seafood 
      Council....................................................   123
    Schaffner, Linda, associate professor, Virginia Institute of 
      Marine Science.............................................    97
    Swanson, Ann Pesiri, executive director, Chesapeake Bay 
      Commission.................................................    45
    Wallace, Mark, Eastern Shore Watermen's Association..........   128
Letters, statements, etc., submitted for the record by:
    Bahner, Lowell, director, Chesapeake Bay Office, National 
      Oceanic and Atmospheric Administration, prepared statement 
      of.........................................................    28
    Boesch, Donald F., president, Center for Environmental 
      Science, University of Maryland, prepared statement of.....    90
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     3
    Hanmer, Rebecca, director, Chesapeake Bay Program, prepared 
      statement of...............................................     9
    Hofmann, Eileen, the professor of ocean, Earth and 
      Atmospheric sciences, Old Dominion University, prepared 
      statement of...............................................   106
    Murphy, W. Tayloe, Jr., Secretary of Natural Resources, 
      Commonwealth of Virginia, prepared statement of............    23
    Phillips, Scott, Chesapeake Bay Coordinator, U.S. Geological 
      Survey, prepared statement of..............................    38
    Pierno, Theresa, vice president for environmental protection 
      & restoration, Chesapeake Bay Foundation, prepared 
      statement of...............................................    78
    Porter, Frances W., executive director, Virginia Seafood 
      Council, prepared statement of.............................   125
    Schaffner, Linda, associate professor, Virginia Institute of 
      Marine Science, prepared statement of......................    99
    Swanson, Ann Pesiri, executive director, Chesapeake Bay 
      Commission, prepared statement of..........................    48
    Wallace, Mark, Eastern Shore Watermen's Association, prepared 
      statement of...............................................   130

 
 A MODEL FOR SUCCESS? MONITORING, MEASURING AND MANAGING THE HEALTH OF 
                           THE CHESAPEAKE BAY

                              ----------                              


                        FRIDAY, AUGUST 20, 2004

                          House of Representatives,
                            Committee on Government Reform,
                                                   Fort Monroe, VA.
    The committee met, pursuant to notice, at 9:58 a.m., in the 
Breeze Community Center, 409 Fenwick Road, Fort Monroe, VA, 
Hon. Tom Davis (chairman of the committee) presiding.
    Present: Representative Davis and Schrock.
    Staff present: Brien Beattie, professional staff member; 
Robert White, press secretary; Teresa Austin, chief clerk; 
Allyson Blandford, office manager; and Amy Westmoreland, 
legislative assistant.
    Chairman Tom Davis. Good morning, the committee will come 
to order. We welcome everybody to today's hearing on the 
Chesapeake Bay clean up effort.
    The Chesapeake Bay is an ecosystem in crisis. All the 
witnesses we will hear from today will agree on this point. 
Large dead zones, areas of low dissolved oxygen that suffocate 
and kill native aquatic life, plague the bay every summer. 
These dead zones are caused by massive nutrient pollution from 
numerous man-made sources, exacerbated by natural weather 
processes. Nitrogen and phosphorous from sewage treatment 
plants, agricultural industry and urban sprawl are washed down 
the major rivers that feed the bay, fueling the uncontrolled 
growth of algae blooms that consume great quantities of 
dissolved oxygen, leaving precious little for oysters, crabs 
and fish. This algae also blocks out sunlight, killing grasses 
and other submerged aquatic vegetation.
    This environmental crisis threatens to destroy a bay that 
is enjoyed by recreational admirers and upon which industrial 
fishermen and their families depend. Indeed, this is a vital 
economic interest for the States involved. For example, the 
Virginia Seafood Council has estimated that commercial fishing 
contributes $450 million annually to the economy of Virginia 
alone. Yet seafood harvest from the bay continue to shrink. In 
1985, only 18 years ago, Virginia oyster men were able to pull 
1 million bushels of oysters from the bay; in 2003 they 
harvested less than 15,000. In short, it is a crisis that 
concerns all of us, not only in this region--Virginia, 
Maryland, Pennsylvania--but across the country as well.
    Since its creation in 1983, the Chesapeake Bay Program has 
been the coordinating agency for the effort to clean up the 
bay. The program is a regional partnership that includes the 
States of Virginia, Maryland, Pennsylvania, and the District of 
Columbia, a tri-State legislative body called the Chesapeake 
Bay Commission, and the U.S. Environmental Protection Agency. 
The program has been hailed as a model for both estuarine 
research and for regional coordination of local, State and 
Federal stakeholders in meeting environmental challenges that 
span multiple jurisdictions.
    In 1987, the Chesapeake Bay Program set the water quality 
goal of reducing the levels of nitrogen and phosphorous in the 
bay by 40 percent by 2000. However, over the years, the program 
has been forced to repeatedly lower expectations in the face of 
the great challenges it faces in accomplishing this mission. 
Using an advance computer model that has been described by one 
program spokesman as the Cadillac of watershed models around 
the world, the program has reported reductions of 28 percent 
for phosphorous and 18 percent for nitrogen since 1985. The 
program, also, has many water quality monitoring stations 
spread throughout the regions. However, according to recent 
media reports using just such water sample data from the U.S. 
Geological Survey, there has been little or no improvement in 
phosphorous or nitrogen levels.
    The recent media attention on apparent inconsistencies 
between progress reported and progress made has prompted many 
in the scientific and environmental communities to question not 
only the effectiveness of the program's computer modeling by 
even its fundamental commitment to cleaning up the bay. Some 
claim the program's over-reliance on computer modeling and 
inadequate use of actual water sample data has created a false 
sense of security among policymakers and the public. However, 
program officials have strongly denied that they neglect water 
sampling in favor of total reliance on a computer model. They 
say the program utilizes 100 different indicators to develop an 
accurate picture of the bay's health and that only 11 of these 
are based entirely on computer models.
    The committee hopes to clear the air today, or perhaps the 
water, over the Chesapeake Bay Program's modeling and 
monitoring procedures. We also want to get a status update from 
those on the front lines of the battle to save the bay and 
learn what, if anything, Congress can do to help.
    I might add that first of all, I was a member of the 
Fairfax County Board of Supervisors during the years that we 
down zoned the watershed which feeds into the bay as a part of 
this program, and had it upheld in court, it has moved its way 
through.
    I am going to now recognize Mr. Schrock, who is really 
responsible for putting this hearing together, for his opening 
statements and then move to our first panel. Mr. Schrock.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T6635.001
    
    [GRAPHIC] [TIFF OMITTED] T6635.002
    
    Mr. Schrock. Well, thank you, and good morning everyone. 
Let me begin Mr. Chairman, by expressing my sincere gratitude 
to you for allowing the committee to hold this important 
hearing not in Washington, DC, but within view of the very body 
of water we are here to discuss and have much to be concerned 
about.
    I want to express my appreciation to Colonel Perry 
Allmendinger who was the commanding officer of Fort Monroe, and 
these soldiers and civilians here at Fort Monroe, whose support 
and hospitality has made today's hearing a reality. Thank you 
very much, Perry, we appreciate it.
    Welcome, all of you to the Second Congressional District of 
Virginia, especially our panel of witnesses who have taken 
their time to help us understand how we can effectively monitor 
and measure the health of this treasure that we call the 
Chesapeake Bay. To many the Chesapeake Bay is a body, whose 
water and watershed are a back yard of a business, a beloved 
home, a playground. A visit to the eastern shore, or to the 
island of Tangier, an observation of the time and energy 
invested in the watermen's way of life are true life examples 
of communities and people that depend on the bay for their very 
livelihood.
    That our bay is impaired is of particular concern to me not 
only as the representative for the Hampton Roads area, but as a 
resident of this area as well. The Chesapeake Bay is the 
largest estuary ecosystem in the world and I have no doubt it 
is the primary model for ecosystem restoration and regional 
partnerships.
    The Chesapeake Bay Program serves as an example for dozens 
of other estuary restoration efforts nationally, including Long 
Island Sound, San Francisco Bay, Tampa Bay, Puget Sound, among 
others. I firmly believe that much expectation is placed on our 
task and our efforts will be a model for success nationwide.
    Without question, we all agree that there is still much 
work to be done. Recently, it was called to my attention in 
news reports in the Washington Post and in other local papers 
exactly how much the Chesapeake Bay cleanup has progressed--is 
disputed. And lying at the heart of the debate are the tools 
and methods used to measure the bay's health. This is a concern 
in that as we have sought to improve the health of the bay, we 
have called on States, localities, businesses, and farmers to 
change their practices so that they are more environmentally 
friendly. These requirements and regulations have cost 
taxpayers, business owners, and farmers millions of dollars in 
compliance.
    As such, it is important for us to know that their 
investments are paying off. If they are not, we must understand 
why and change course, if necessary. In attempts to deal with 
the bay, the Federal and State governments passed laws and 
regulations that impact these stakeholders. Policymakers, 
before passing such laws and regulations, must know exactly 
where we are now and precisely the means necessary to achieve 
our goals of healing the bay.
    So, in light of the conflicting reports about the health of 
the Chesapeake Bay, the purpose of today's hearing is to learn 
more about what the actual state of the bay really is, how the 
bay has helped to fix our region and how to best reevaluate it. 
I firmly believe that before we can legitimately tackle the 
huge task of saving the bay, we must establish the necessary 
framework before we can implement the right solutions.
    Again, thank you all for coming today, I know that I have a 
lot to learn and I look forward to our witnesses' testimony. 
And again, Mr. Chairman, thank you for holding this hearing.
    Chairman Tom Davis. Well, thank you very much Mr. Schrock, 
and now we turn to our first panel. It is the policy of our 
committee that all witnesses be sworn before they testify. Let 
me just introduce our panel.
    First we have Rebecca Hanmer, who is the director of the 
Chesapeake Bay Program; we have Tayloe Murphy, Jr., former 
member of the Virginia House of Delegates and now the Secretary 
of Natural Resources of the Commonwealth of Virginia, and 
Tayloe Murphy goes with water quality and environment in this 
State for more than a generation. Lowell Bahner who is the 
Director of the Chesapeake Bay Office, National Oceanic and 
Atmospheric Administration. Scott Phillips, the Chesapeake Bay 
Coordinator for the U.S. Geological Survey; and Ann Swanson, 
the Executive Director of the Chesapeake Bay Commission.
    Will you rise with me and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much. Your entire 
statements are in the record. We will base our questions on 
reading that last night and, and we will ask you on that. So, 
what we would like you to do is keep it to 5 minutes as we go 
through. We do have a light up there, when it is working, it 
will be green for the first 4 minutes and then it will turn 
orange, and when it turns red your 5 are up and you can move to 
summary about that time. We will not gavel you or shout at you. 
Ms. Hanmer, we will start with you and then we will work 
straight on down the row. Thank you.

 STATEMENT OF REBECCA HANMER, DIRECTOR, CHESAPEAKE BAY PROGRAM

    Ms. Hanmer. Thank you, Mr. Chairman.
    Chairman Davis, and Congressman Schrock, thank you for 
inviting me to testify today. My name is Rebecca Hanmer and I 
am the Director of the EPA Chesapeake Bay Program Office.
    I am sorry to be the unwitting cause of a controversy over 
how progress in implementing the bay cleanup is measured. I am 
especially sorry that the controversy has led respected 
newspapers and members of the public to conclude that the 
Chesapeake Bay Program does not monitor the water quality 
conditions of the bay and its tidal tributaries or care what 
the monitoring data tell us. We care very much. Curing the 
problems of the bay is our profession and our passion, 
therefore I welcome the opportunity to take a moment to discuss 
both our modeling and our monitoring programs. But, most 
importantly I'd like to talk about the additional actions we 
need to take to restore the bay.
    Annually, we spend about $1 million on modeling. Having 
read other witnesses prepared testimony I think you will hear 
others say that our watershed model is, for example, one of the 
most advanced ecosystem models in the world, as from Ms. 
Pierno's testimony. The most comprehensive and powerful models 
of the watershed and estuary of their kind, as from Dr. Boesch.
    Let me say from my own experience, the Chesapeake Bay 
Watershed Model is world class and we are proud of it. Like all 
water pollution control programs, we must rely on modeling to 
help us to determine what actions we should take to reduce 
pollutants and ultimately to achieve water quality improvement. 
We use modeling to help us determine what we can control and 
what we cannot--like the rainfall, or tidal resuspension. The 
model helps us set goals and develop management strategies.
    Last year we concluded a 3-year effort to set new 
ecosystem-based water quality criteria for the bay. We then set 
basin-wide pollution reduction targets that would be needed to 
achieve this new scientific description of restored bay water 
quality. We concluded, for example, we should allow no more 
then 175 million pounds of nitrogen to enter the bay during an 
average hydrologic year. I do not think you will hear a single 
witness today dispute that number. It is a consensus goal and 
it was based on the use of the bay program's watershed model. 
It only makes sense then that we should use the same tool as we 
conduct annual progress runs to determine if we are making the 
right management decisions to reach those targets.
    But that is not the only way we measure the health of the 
bay or evaluate the management decisions designed to restore 
the bay. While we spent about $1 million in fiscal year 2003 on 
modeling, we spent about $3 million on monitoring, with our 
partners investing much more than that in our monitoring 
program. I think most of the data that will be discussed today 
from dissolved oxygen levels to nutrients to bay grasses comes 
from the Chesapeake Bay Monitoring System.
    So, it is simply not true to say that we do not monitor, we 
do and we pay close attention to the results. If you look at 
the bay program's Web site you will see a large number of 
indicators of the bay including information from both our tidal 
and non-tidal water monitoring networks. As you pointed out, 
Mr. Chairman, of the 100 indicators we use, about 11 are based 
on the watershed model output.
    In 2003, as I said, we published new criteria for measuring 
the water quality of the bay. Attainment with these criteria 
will be measured through water quality monitoring data. That is 
the ultimate test of the success of our bay water quality 
restoration efforts. So, we clearly need both monitoring and 
modeling to be successful. But neither a world class model, nor 
robust water quality monitoring alone will restore the bay. 
What we need is action, implementation.
    Over the past 20 years the bay program has helped bring 
about important actions that are making a positive difference 
in the health of the bay. For example, 97 wastewater treatment 
plants have already installed nutrient removal technology, and 
that is about 56 percent of the total flow. Over 3 million 
acres of crop land are operated under nutrient management plans 
designed to reduce excess nutrients. Over 1,300 stream miles 
have or will be open to migratory fish. Over 2,800 miles of 
stream side forest buffers have been restored. As important as 
these accomplishments have been, they are just the beginning. 
We estimate we have only removed a small percentage of the 
nitrogen pollution and about half of the phosphorous and 
sediment pollution that we need to remove in order to meet our 
water quality goals.
    So, we have made modest gains in reducing the number of 
pollutants flowing to the bay, especially when we are faced 
with a 20 percent increase in population growth. But the amount 
of work ahead of us is truly daunting. To restore the bay will 
take unprecedented of levels of effort meaning that government 
at all levels, farmers, food processors, developers, 
homeowners, apartment dwellers, everyone alike will be affected 
by our tributary strategies and will need to help us clean up 
the bay. With their help and with your leadership I think we 
can succeed.
    Thank you very much.
    Chairman Tom Davis. Thank you, very much. Secretary Murphy.
    [The prepared statement of Ms. Hanmer follows:]

    [GRAPHIC] [TIFF OMITTED] T6635.003
    
    [GRAPHIC] [TIFF OMITTED] T6635.004
    
    [GRAPHIC] [TIFF OMITTED] T6635.005
    
    [GRAPHIC] [TIFF OMITTED] T6635.006
    
    [GRAPHIC] [TIFF OMITTED] T6635.007
    
    [GRAPHIC] [TIFF OMITTED] T6635.008
    
    [GRAPHIC] [TIFF OMITTED] T6635.009
    
    [GRAPHIC] [TIFF OMITTED] T6635.010
    
    [GRAPHIC] [TIFF OMITTED] T6635.011
    
    [GRAPHIC] [TIFF OMITTED] T6635.012
    
   STATEMENT OF W. TAYLOE MURPHY, JR., SECRETARY OF NATURAL 
              RESOURCES, COMMONWEALTH OF VIRGINIA

    Mr. Murphy. Mr. Chairman, and Congressman Schrock, thank 
you very much for the opportunity to be with you today. My 
message to you is a simple one. Restoration of the Chesapeake 
Bay is both possible, and critical to the future environmental 
and economic health of the Commonwealth. However, a clean and 
healthy bay will not come without substantial public and 
private investment, and the unwavering support of all levels of 
government as well as private stakeholders.
    There will always be disagreements about water quality data 
and its interpretation. On the other hand, I do not doubt for a 
moment that the bay program office has been absolutely 
forthright with the public about the magnitude of the 
challenges involved in restoring the bay, and the difficulties 
we face in meeting them.
    Our current efforts to improve dissolved oxygen and 
chlorophyll, A concentrations and water clarity through 
nutrient reduction strategies are fraught with political and 
fiscal complications. Simple solutions that make for good press 
do not necessarily constitute wise public policy. I want to 
take this opportunity to assure you that we are moving 
inexorably toward the goals established for a restored bay, but 
these are difficult, expensive and complex issues that take 
time to resolve.
    As chairman of the Chesapeake Executive Council, Governor 
Warner and his counterparts in the other participating States 
and jurisdictions cannot do this alone. The success of the 
efforts in which we are now engaged will require the strong 
support of conservationists, industry, local government, 
members of the State legislatures, and the U.S. Congress, as 
well as the President himself. All of us who are charged with 
the responsibility of meeting the commitments contained in the 
Chesapeake 2000 agreement value the scientific work that is 
being done by the Chesapeake Bay Program, under the leadership 
of Rebecca Hanmer and her capable staff.
    The program has always employed the best available science 
and state-of-the-art measures to assess progress. I have been 
personally involved in the Chesapeake Bay Program for over 20 
years, and I know from my own experience that professionalism 
and the use of the best available science have always been the 
hallmark of this program. I know that Ms. Hanmer will continue 
to administer the program and according to these high standards 
so that the public will not be misled as to the state of the 
bay.
    Regardless of what we may have heard in the press, we have 
always based our measures of success on actual water quality 
conditions, this will not change. Only monitoring will tell us 
whether our waters meet established water quality standards. 
Although, we used the bay model as a management tool in-stream 
conditions as determined through our monitoring programs will 
continue to constitute the basis on which progress and 
improving water quality is measured.
    On the basis of recent press reports and other sources, the 
public may have the impression that they are being misinformed 
by the bay program of both the progress that has been made and 
the magnitude of the task at hand. The development of new water 
quality standards in accordance with the 2003 criteria 
promulgated by the bay program office and the strategies now 
being drafted to achieve the nutrient reductions necessary to 
achieve the new standards is a clear indication that progress 
to date in improving water quality in the bay and its 
tributaries is insufficient to restore the bay to a truly 
healthy condition.
    Since becoming Secretary of Natural Resources for Virginia, 
I have consistently repeated myself and I will do so again 
today. Meeting the water quality objectives set forth in the 
Chesapeake 2000 agreement and the subsequent nutrient reduction 
commitments agreed to by the bay partners in 2003 constitute 
the single most important initiative to restore the bay to a 
healthy and productive estuary.
    In all candor I must also state that we have no hope of 
meeting these ambitious water quality goals without significant 
additional financial support from both the public and private 
sectors and without significant changes in how we farm, manage 
stormwater, convert land, use septic tanks and treat industrial 
and municipal waste.
    Now, I would like to take a moment to report to you on the 
actions we have undertaken in Virginia to meet our commitments 
to achieve these goals. Under Governor Warner's leadership and 
with strong support from the General Assembly, $37 million has 
been appropriated for the water quality improvement fund for 
this biennium. That fund is the principal source of State 
support for both point and non-point nutrient reduction 
programs. As a result of the fact that we ended the last fiscal 
year with a surplus we hope to receive another $30 million in 
appropriations to the fund at the next session of the General 
Assembly. It is certainly not all that we need, however, it 
represents the first contribution to this fund in 3 years and 
it is an important step in the right direction.
    In April, I released for public comment draft tributary 
strategies for each of the major river basin in Virginia's 
portion of the Chesapeake Bay Watershed. These strategies 
contain a series of proposed management practices to control 
non-point source nutrient pollution and higher levels of 
treatment for point source discharges. On the basis of the 
public comment that has been received, we are currently 
revising these documents and preparing implementation plans. We 
will then use the bay program model to determine whether our 
final strategies if fully implemented will enable us to achieve 
our reduction goals.
    However, only consistent widespread monitoring will tell us 
whether we have actually met those goals. On the regulatory 
front, in June the Virginia Water Control Board released for 
public comment draft water quality standards for dissolved 
oxygen, chlorophyll A and water clarity. These proposed 
standards prepared by the Department of Environmental Quality 
will apply to all of Virginia's tidal waters.
    In its August 31 meeting, the Board will also consider a 
regulation to require technology based nutrient limits in 
wastewater discharge permits as well as nutrient loading 
allocations for point source facilities in the bay Watershed, 
the purpose of which is to reduce and cap point source 
loadings. On the non-point source side, we are working to 
target more effectively our cost share programs for non-point 
sources through the Department of Conservation and Recreation 
in partnership with local governments and soil and water 
conservation districts.
    This department is working closely with the General 
Assembly's Joint Legislative Audit and Review Commission that 
is conducting a study of nutrient management planning in 
Virginia. We will review JLARC's findings later this year to 
determine what additional initiatives we should pursue in the 
use of this important nutrient reduction tool for agriculture.
    In addition, the Department of Conservation and Recreation, 
in cooperation with the Department of Environmental Quality, is 
now in the process of implementing the legislation proposed by 
the Governor and passed by the 2004 General Assembly that 
reorganizes the Commonwealth stormwater management programs and 
expands the coverage of those programs Statewide.
    With regard to non-point source controls, some practices 
can be implemented either through regulation or incentives or a 
combination of both. On the other hand, some non-point source 
practices can only be achieved through incentive based 
programs. Accordingly, our biggest challenge is quite clearly 
to find the additional revenue sources necessary to put in 
place both our point and non-point source initiatives. If we 
are unsuccessful in obtaining additional financial support from 
the State and Federal levels, the cost of success will fall 
entirely on the localities and their ratepayers and on the 
private property owner.
    The water quality improvements that we seek benefit all 
Virginians and indeed all who live, work, and visit within the 
bay watershed. Therefore, the cost of success should be borne 
in my judgment by all taxpayers and not just by some of them.
    In closing, I would like to share with you my personal 
perspective on what the achievement of our present water 
quality goals means to Virginia. As some of you know I am a 
native of the Northern Neck of Virginia. The peninsula bounded 
by the Potomac, and Rappahannock Rivers in the Chesapeake Bay. 
I was born there and I have lived nearly all of my life on the 
banks of the lower Potomac. During my rather long life I have 
witnessed dramatic declines in the living resources of the bay. 
And in the last 20 years which coincides with the years of my 
public service, these declines have continued unabated. In 
1984, oyster harvests in Virginia were over 4.5 million pounds. 
In 2003 the harvest of oysters yielded just over 77,000 pounds. 
In 1984, there were 200 oyster shucking houses in Virginia; in 
2003, there were 20. In 1984, blue crab harvest in Virginia 
produced over 50 million pounds; in 2003, the harvest was down 
58 percent to just over 21 million pounds. In 1984, there were 
75 crab picking houses in the Commonwealth; in 2003, there were 
10. When one considers these statistics, there is small wonder 
that those engaged in the fishing industry feel that they have 
paid the cost of our neglect of their interest in water quality 
and habitat protection.
    Now, let me say as I began, restoration of the bay is both 
possible and critical to the future environmental and economic 
health the Commonwealth. Your help is important to the success 
of the water quality initiative now underway. I thank you for 
providing me with the opportunity to make this plea to you 
today, and I hope that this hearing will have the effect of 
strengthening your commitment to be an advocate for the bay. 
Thank you very much.
    Chairman Tom Davis. Thank you very much. Mr. Bahner.
    [The prepared statement of Mr. Murphy follows:]

    [GRAPHIC] [TIFF OMITTED] T6635.013
    
    [GRAPHIC] [TIFF OMITTED] T6635.014
    
    [GRAPHIC] [TIFF OMITTED] T6635.015
    
 STATEMENT OF LOWELL BAHNER, DIRECTOR, CHESAPEAKE BAY OFFICE, 
        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Mr. Bahner. Mr. Chairman, and Mr. Schrock, I am Lowell 
Bahner, director of the NOAA Chesapeake Bay Office. Thank you 
for inviting me to testify regarding NOAA's role in supporting 
the Chesapeake Bay Program and the issue of modeling versus 
monitoring to evaluate progress in the restoration effort.
    NOAA's role in the Chesapeake Bay Program derives from the 
agency's mission, the statutory mandate of the NOAA Chesapeake 
Bay Program and the Chesapeake 2000 agreement. As a partner in 
the Chesapeake Bay Program, NOAA works toward several specific 
commitments of the Chesapeake 2000 agreement. The Chesapeake 
Bay Program recently established a set of keystone commitments 
for bay restoration. I will discuss NOAA's lead role for four 
of those keystones.
    First, by 2010, achieve a 10-fold increase in native 
oysters. NOAA is the lead Federal agency for Chesapeake Bay 
oyster restoration providing funding and technical assistance 
to large scale restoration and community efforts, hatchery 
infrastructure and applied disease research. The strategy for 
native oyster restoration continues to be refined based on 
evaluation of projects implemented to date.
    In addition to restoration support, oyster disease research 
funding from NOAA Sea Grant continues to address disease 
management strategies, development of potentially disease 
resistant strains of native oysters, and evaluation of the 
possible introduction of alternative oyster species.
    Second, by 2005, develop multi-species fishery management 
plans. Fisheries in Chesapeake Bay contribute significantly to 
U.S. catches at national and regional levels. Recent statistics 
indicate that an average of 600 million pounds of fish and 
shellfish with an estimated value of $156 million are 
commercially harvested from Chesapeake Bay each year. NOAA 
recently released a guidance document entitled Fishery 
Ecosystem Planning for Chesapeake Bay and is also developing an 
ecosystem-based fisheries model to support State and regional 
fishery managers in the development of new fishery management 
plans.
    Third, for submerged aquatic vegetation, accelerate 
protection and restoration. The NOAA Chesapeake Bay Office 
began large scale submerged aquatic vegetation planting and 
research in 2003. NOAA awarded grants in fiscal year 2003 and 
fiscal year 2004 to establish pilot and large scale planting 
and restoration techniques for underwater grasses native to the 
various salinity regimes of Chesapeake Bay and its tidal 
tributaries.
    Fourth, provide a meaningful bay or stream experience for 
all students in the watershed, beginning with the class of 
2005. As the lead Federal agency for education in the 
Chesapeake Bay Program, NOAA coordinated the activities of the 
Chesapeake Bay Program education work group. The NOAA Bay 
Watershed Education and Training Program [B-WET] established in 
2002, provides hands-on watershed education to students and 
teachers to foster stewardship of Chesapeake Bay. NOAA 
recognizes that environmentally aware citizens with the skills 
and knowledge to make well informed environmental choices are 
key to sustaining the Nation's ocean and coastal environments.
    NOAA-wide investments: In addition to the programs of the 
NOAA Chesapeake Bay Program Office, NOAA provides a number of 
valuable products and services to address a broad range of bay 
user needs, including ensuring safe navigation and marine 
commerce, restoring habitats, improving the management of 
coastal resources, providing citizens with forecasts of wind, 
weather and water events, and protecting and restoring the 
bay's fisheries. NOAA has also afforded benefits to the 
Chesapeake Bay through strong partnerships with State and local 
government, academia, and private organizations.
    Modeling versus monitoring in reporting progress: NOAA 
provides the EPA and Chesapeake Bay Program Office with data 
used to run the bay watershed pollutant loading model, 
including rainfall and precipitation data, meteorological data 
such as wind, temperature, humidity and solar radiation, 
remotely sensed chlorophyll information and an air deposition 
model. NOAA believes that both modeling and monitoring are 
important in reporting progress on bay restoration. Modeling 
provides a valuable tool for examining the potential impact of 
a given management scheme and looks back to understand what 
happened. Monitoring provides an ongoing means of accessing the 
net result of management actions, taking into account the 
natural variability in the environment and providing real world 
data for input back into modeling efforts.
    This concludes my testimony Mr. Chairman, I will be happy 
to respond to any questions that you or members of the 
committee may have.
    Chairman Tom Davis. Thank you very much. Mr. Phillips.
    [The prepared statement of Mr. Bahner follows:]

    [GRAPHIC] [TIFF OMITTED] T6635.016
    
    [GRAPHIC] [TIFF OMITTED] T6635.017
    
    [GRAPHIC] [TIFF OMITTED] T6635.018
    
    [GRAPHIC] [TIFF OMITTED] T6635.019
    
    [GRAPHIC] [TIFF OMITTED] T6635.020
    
    [GRAPHIC] [TIFF OMITTED] T6635.021
    
    [GRAPHIC] [TIFF OMITTED] T6635.022
    
    [GRAPHIC] [TIFF OMITTED] T6635.023
    
 STATEMENT OF SCOTT PHILLIPS, CHESAPEAKE BAY COORDINATOR, U.S. 
                       GEOLOGICAL SURVEY

    Mr. Phillips. Mr. Chairman and Congressman Schrock, thank 
you for the opportunity to testify about the progress in 
safeguarding the Chesapeake Bay. My name is Scott Phillips, I 
am the Chesapeake Bay coordinator for the U.S. Geological 
Survey. This morning my testimony will focus on the role of the 
USGS in providing science to the bay program, and how the USGS 
science is used to report water quality progress.
    Since the formation of the Chesapeake Bay Program in 1983, 
the USGS has performed a critical role of providing unbiased 
scientific information that is used by our bay program partners 
to help understand and restore the bay and its watershed. More 
recently, findings from the USGS have been used by the bay 
program partners to help formulate approaches to meet and 
evaluate the restoration goals in the Chesapeake 2000 
agreement.
    Over 40 USGS scientists located in offices throughout the 
bay watershed are involved in conducting studies. These 
scientists directly interact with our partners to present and 
explain the results of these investigations.
    Now, let me talk more specifically about the use of USGS 
science in the issue of modeling and monitoring to assess water 
quality progress. One of the primary goals of the Chesapeake 
2000 agreement is to reduce the pollution that enters the bay 
to improve conditions by 2010. Each year the bay program 
partners monitor the major pollutants--nitrogen, phosphorus and 
sediment--that are in the rivers and tidal waters. The 
monitoring data are used with modeling results to help the bay 
program partners assess progress in meeting the water quality 
goals of Chesapeake 2000.
    USGS, in cooperation with our partners, monitors water 
quality at nine principal rivers that enter the tidal portion 
of the bay watershed. At each of these nine river input sites 
which are shown here on this map, the USGS has monitored the 
levels of river flow and nutrient and sediment concentrations 
in each of these rivers. This information is used to determine 
the amount or loads of nutrients and sediment that enter the 
tidal waters. Results show that in 2003, the nutrient loads 
were the second highest since monitoring began in 1980's, that 
can be seen on this bottom graph. The loads of nutrients at 
these sites have been affected by yearly changes in river flows 
and changes in nutrient concentrations.
    In just the last few years, the river flow and nutrient 
loads have varied from near record lows due to drought 
conditions in 1999 through 2002 to near record highs in 2003. 
The higher nutrient loads in 2003 are related to increased 
rainfall and higher nutrient concentrations due to runoff in 
this very wet year. The changes in load have a very real impact 
on the bay, these increased loads on 2003 contribute to large 
areas of low dissolved oxygen levels and a decline in 
underwater grasses in the bay. These changes in yearly loads, 
which are driven partially by weather conditions, suggest a 
lack of progress in reducing pollutants to the bay.
    The USGS has developed statistical techniques to compensate 
for these natural changes in river flow, so we can better 
understand progress related to management actions. Using these 
techniques results from the nine river input sites show 
improvements in nitrogen and phosphorus concentrations at about 
half of these sites. There were declines in total nitrogen 
concentrations at four rivers including the Susquehanna, 
Potomac and James, which comprise almost 90 percent of the 
river flow that enters the bay. Total phosphorus concentrations 
also declined at two sites, including the Susquehanna and 
James.
    There has been some question about the use of the 
Chesapeake Bay Program Watershed Model to evaluate progress in 
reducing loads to the bay. The model progress runs were not 
intended to reflect these annual changes in nutrients and 
sediment loads. They focus more on the average river flow 
conditions to predict load reductions. When the results of the 
model progress runs are compared to the flow adjusted trends in 
the rivers, there is general agreement about the progress in 
pollution reduction.
    In conclusion, the watershed model is a critical tool to 
predict load reductions to the bay. The bay program has 
utilized new scientific findings on the effectiveness of 
management actions to improve these predictions. Further the 
bay program partners, including the USGS, are making 
enhancements to current models to produce an improved version 
that incorporates additional data on river flow, water quality, 
and other watershed processes. Ultimately, evaluating progress 
will be based primarily on monitoring data. The USGS and the 
bay program partners are working to increase the amount of 
monitoring and interpretation of water quality conditions in 
the bay and its watershed.
    Additionally, USGS is working to better document the human 
activities and natural factors that impact water quality, 
fisheries and migratory birds that depend on the bay. We face a 
huge challenge in restoring the Chesapeake Bay. There will be a 
critical need for increased monitoring and research to 
understand the progress from restoring the Nation's largest 
estuary.
    Mr. Chairman, the USGS appreciates your continued interest 
in the Chesapeake Bay Program. I will be pleased to answer any 
questions.
    Chairman Tom Davis. Thank you very much. Ms. Swanson.
    [The prepared statement of Mr. Phillips follows:]

    [GRAPHIC] [TIFF OMITTED] T6635.024
    
    [GRAPHIC] [TIFF OMITTED] T6635.025
    
    [GRAPHIC] [TIFF OMITTED] T6635.026
    
    [GRAPHIC] [TIFF OMITTED] T6635.027
    
    [GRAPHIC] [TIFF OMITTED] T6635.028
    
    [GRAPHIC] [TIFF OMITTED] T6635.029
    
    [GRAPHIC] [TIFF OMITTED] T6635.030
    
STATEMENT OF ANN PESIRI SWANSON, EXECUTIVE DIRECTOR, CHESAPEAKE 
                         BAY COMMISSION

    Ms. Swanson. Chairman Davis, Congressman Schrock, thank you 
very much for the honor to be here. My name is Ann Pesiri 
Swanson, and I have worked for more than two decades on 
Chesapeake Bay, having served for the last 16 years as 
executive director of the Chesapeake Bay Commission. I would 
like to first thank you for recognizing the Commission as a 
very different entity than my colleagues.
    Your committee has asked us to provide a summary of current 
legislation and regional cooperation and the role of the 
Chesapeake Bay Commission in bringing those constituent 
legislators together. On that note, let me say that we do serve 
to represent the legislative branch of the Chesapeake Bay 
Program, with the colleagues of course representing the 
executive branch.
    It is within that rubric of legislation that we have done 
most of our work, and I have submitted to you for the record a 
summary of the past 20 years of legislative accomplishments. I 
hope that you will take as a compendium of our efforts which 
have in fact been very substantial. Of course, the question 
here is have they been enough. And that is what I would like to 
address today. Because at the end of the day despite these two 
decades of legislative effort, the restoration does indeed 
continue to stall.
    Reductions in nutrient loads both above and below the fall 
line have yet to translate into measurable increases in the 
concentration of dissolved oxygen in the main stem of 
Chesapeake Bay. This is not due to lack of effort, it really is 
testimony to how much more needs to be done, because of some 
very unique characteristics of the Chesapeake itself.
    I do not think that it is responsible if I do not began by 
recognizing a very significant physical feature of the bay 
which makes it worldwide, very unique. And that is its 
vulnerability, the land to water ratio in the Chesapeake Bay 
region is actually the highest of any water body on Earth. What 
that means is that the bay itself is extremely shallow. That is 
both its greatest flaw and its greatest attribute. The 
attribute because if you are shallow you can allow light to 
penetrate and where there is light there is productivity. The 
vulnerability lies in the fact that an enormous watershed, 
64,000 square miles drains into that extremely shallow body of 
water with a mere 18 trillion gallons of water. The result is 
that what you do on land is inextricably linked to the water. 
The result is when there is high rainfall, lots of non-point 
source pollution, lots of nutrients, lots of sediment, come off 
that land and are expected to be diluted by a very shallow body 
of water, which in fact is impossible.
    So, despite the fact that we have enacted just a plethora 
of laws at the State and the Federal level they do not seem to 
be able to keep pace with the shallowness. Does that say we 
give up, no. What it says is we need more laws more regulations 
and we need more money coming into the bay to essentially 
counter this unique physical feature that makes the bay the 
most productive body of water, estuarine water, on Earth.
    The second thing I would like to make a point about has to 
do with the modeling versus the monitoring. Monitoring has 
always been the Chesapeake Bay Commission's determinant of 
success and it will continue to be so. But, the models allows 
us to predict the potential impact of some of the policies that 
we consider. And in fact, the model tells us the good news 
which may lie ahead if we take certain strident actions. But 
the monitoring essentially tempers us and tells us you better 
keep trying.
    And so, I just want to make the point that we do in fact 
use the predictive capabilities of the model in a very valuable 
way. In fact, right now we are using the model combined with a 
very serious data bank of cost to look at cost effectiveness, 
to determine not only where are the best investments in State 
policy but also, where are the best investments and the largest 
bang for your buck at the Federal level.
    Let me then speak to the Federal level opportunity. 
Essentially we know what to do in the Chesapeake Bay Region. We 
are unique in that regard, we have already planned the course 
and the course is an outstanding one. Complex? Yes. Difficult 
to achieve? Yes. Do-able? Yes, but only with the proper 
policies and dollars. At the Federal level there are some 
extremely significant things that you can do to help. And let 
me say right here that while I believe we can protect 
Chesapeake Bay and while I believe it is possible I must say 
that I do not believe it is possible at simply the State and 
local level. I believe that leadership has to come from all 
three.
    So, in closing let me point out just four areas where I 
think the Congress deeply can help. One, is through your 
appropriation process. We have outlined through the Chesapeake 
Bay agreements some very real opportunities in water quality, 
land conservation, living resources and environmental 
education. And the dollars that you provide to the bay region 
have indeed really provided for much of its success. They are 
catalysts for State action, and without them I do not believe 
we would have made the progress.
    The second thing really has to do with point sources. The 
point sources are the more sure fire bet of reducing pollution. 
What you get out of the pipe is out the pipe and out of the 
pollutant load. And anything that you can do to pump dollars 
into those sewage treatment plants to achieve nitrogen removal. 
We are one of the few places in the United States, ways to do 
that along the Tampa Bay and Long Island Sound, would be most 
helpful and I call your attention to Blue Plains. Blue Plains 
is the largest sewage treatment plant in the world, and if we 
do not pull that up to state-of-the-art, we are missing an 
opportunity. The district cannot do it alone.
    The third, is the farm bill, please sit down with us on the 
2007 farm bill and really analyze those areas of the farm bill 
where we can really make a difference in terms of water quality 
improvement. They are there, they are profound and with the 
agriculture committing a full third of the pollutant load to 
the Chesapeake Bay, it is an opportunity that is hanging out 
there and if we miss it, we miss the opportunity to protect the 
bay.
    And finally, it is really you that sit on the Surface 
Transportation Act, it is you that then sit on the integration 
and the final recognition that stormwater is a component part 
of impervious surface. There are opportunities to change the 
way we grow in terms of transportation and I deeply encourage 
you to look at that.
    So, in closing let me say you began by saying let us clear 
the air and clear the water. The Clean Air Act and the Clean 
Water Act are two pieces of law that really do affect the 
Chesapeake Bay Region. They present very real congressional 
opportunities to make a difference, and I offer the Commission 
and the Commission's staff to you and to your staff to try and 
make improvements to those bodies of law. Thank you very much 
for this opportunity to testify.
    Chairman Tom Davis. Thank you all for your testimony.
    [The prepared statement of Ms. Swanson follows:]

    [GRAPHIC] [TIFF OMITTED] T6635.031
    
    [GRAPHIC] [TIFF OMITTED] T6635.032
    
    [GRAPHIC] [TIFF OMITTED] T6635.033
    
    [GRAPHIC] [TIFF OMITTED] T6635.034
    
    [GRAPHIC] [TIFF OMITTED] T6635.035
    
    [GRAPHIC] [TIFF OMITTED] T6635.036
    
    [GRAPHIC] [TIFF OMITTED] T6635.037
    
    [GRAPHIC] [TIFF OMITTED] T6635.150
    
    [GRAPHIC] [TIFF OMITTED] T6635.151
    
    [GRAPHIC] [TIFF OMITTED] T6635.152
    
    [GRAPHIC] [TIFF OMITTED] T6635.153
    
    [GRAPHIC] [TIFF OMITTED] T6635.154
    
    [GRAPHIC] [TIFF OMITTED] T6635.155
    
    [GRAPHIC] [TIFF OMITTED] T6635.156
    
    [GRAPHIC] [TIFF OMITTED] T6635.157
    
    [GRAPHIC] [TIFF OMITTED] T6635.158
    
    Chairman Tom Davis. Thank you all for your testimony.
    Mr. Schrock. Mr. Chairman, would you yield?
    Before we go with questioning, I want to recognize two 
members of the legislature, the Virginia Legislature, who are 
with us today. From northern Virginia, is Virginia State 
Senator Jean Marie Debalites, who I believe who on June 26th 
became Senator Jean Marie Debalites Davis, the wife of the 
chairman, she is here with us today.
    Chairman Tom Davis. I was afraid of the primaries.
    Mr. Schrock. His words not mine. And from Chesapeake is 
House delegate John Cosgrove and both of their districts impact 
the tributaries of the Chesapeake and I am delighted that they 
are here today. So, Jean Marie and John welcome. Thank you very 
much for being with us.
    Chairman Tom Davis. Ms. Swanson, let me start with you. 
Yours was stimulating testimony. Dollars fill a huge component 
of this. Do you feel right now--and I will ask everybody--that 
the amount of money coming in to here from the Federal, State 
and local is adequate or does it need to be stepped up 
significantly or how you characterize it?
    Ms. Swanson. I think it needs to be stepped up and the 
reason is because in our analysis, basically right now the 
Federal Government contributes just shy of 20 percent, 18 
percent of the amount of money coming into the bay region for 
restoration. However, if we are going to step up the total 
dollars invested to implement the bay agreement, then that 
proportion of money, just to keep pace with your current level 
of partnership, would need to grow. And according to our 
calculations, that means that your investment would have to 
about triple on par with the tripling with State and local 
dollars as well. So, the answer is clearly, yes. And in truth 
if you wanted a $500,000 house and you were only going to 
invest $90,000, your realtor would say let us readjust, lets 
have a different dream house. If the dream is a Chesapeake Bay 
that is truly clean, then we need to put the cash in that will 
make that a reality.
    Chairman Tom Davis. We are uniquely situated to do 
something about some of the other issues. We have three 
appropriators in the House on the Virginia side. We have--the 
Blue Plains sewage treatment plant lies directly under our 
committee jurisdiction. We have done some things to try to help 
it. We have had a lot of management issues up there as you can 
imagine.
    Ms. Swanson. Right.
    Chairman Tom Davis. But we can come back and look at that 
and we would be happy to have further discussions with you on 
what we really need to do to reduce the nitrogen levels coming 
out of there.
    The farm bill, Representative Goodlatte now chairs that 
committee and I hope that we can open that dialog, because what 
happens to the bay really affects the whole Commonwealth.
    I am concerned of the fishing numbers, Mr. Murphy. You 
talked about that, and the fishing numbers have depleted 
rapidly and I do not know that you need to define success just 
by the number of fish, I think it is a larger issue than that. 
But, long term strategy, how do you get those numbers back up? 
You put more claims in, do you introduce new species? Mr. 
Bahner, had something to say about that as well. What is the 
long term strategy for getting the number of oysters and crabs 
up?
    Mr. Murphy. Well let me say that I believe that the measure 
of success is partly measured by the living resources of the 
bay. How healthy are our fisheries, we have the food fish, we 
have the thin fish species, we have menhaden as opposed to food 
fish, we have crabs, oysters. And the health of those 
populations is I think a significant criteria of determining 
success in restoring the bay. But I do not think that is the 
only measure of success.
    Chairman Tom Davis. You are saying first they have to be 
healthy.
    Mr. Murphy. I think in order for those fisheries to be 
healthy and to be able to restore the populations in those 
various species, we need to make sure that we have both fishery 
management tools in place to regulate the harvest of those 
species. But we also need to improve the quality of the water 
of the habitat in which they survive. You cannot have a healthy 
fish or crab population, for example, without having healthy 
sea grass beds. And that is one of the major problems we face 
in the bay today, that is the restoration of sea grasses. That 
was one of the three problems that the EPA report back in 1982 
identified--nutrient, toxics and the loss of submerging 
vegetation. Our water clarity, our new water quality standard 
for water clarity will be measured by the increases in 
submerged aquatic vegetation acreage. That is vitally important 
to our fishery resources.
    So, I think that the measure of success in restoring the 
bay is partly based on the improvements in our living resources 
and also in water quality. There are other uses of the bay--
swimming, boating. We are seeing areas that were formally off 
limit to water contact. The Potomac, for example, in 
Washington, 30 years ago you could not have water contact 
because of the pollution that existed there. Today, the river 
at Washington is being used by boaters and in Richmond the 
James River is being used to a far greater extent than it was 
in the past years, for recreational use.
    So, I think we measure success by different factors but I 
think that fisheries are one of the main ones. And that's been 
one of the great commercial benefits. The Virginia Marine 
Resources Commission is the oldest agency in the State of 
Virginia. It was created back in the 19th century, and it was 
originally known as the Oyster Commission, because that 
industry was so vitally important to Virginia's economy that a 
commission was necessary to regulate the oyster industry.
    Today, we face problems with oysters that perhaps are not 
necessarily related to pollution. Diseases have been a major 
factor in the reduced population of the native oysters.
    Again, I think one of the program issues that we face today 
is the use of non-native species. That is a controversial issue 
but it is one that we are going to have to look at and address, 
both from the standpoint of water quality and from the 
standpoint of restoring that particular fishery.
    Chairman Tom Davis. Mr. Bahner, speaking on the non-native, 
I know one of the controversies is the Asian oysters coming 
into the bay. Could you bring me up to date? I have read 
different accounts on what this will do.
    Mr. Bahner. Certainly. The States of Maryland and Virginia 
petitioned to bring in a non-native oyster to Chesapeake Bay. 
That began a process called an environmental impact statement. 
There is a process that EPA, NOAA, and Fish and Wildlife are 
cooperating agencies with the Corps of Engineers and the States 
to examine this request to introduce this non-native species. 
NOAA's role in this process is to provide money for research to 
understand the potential impact and benefits of this 
introduction. We have funded through the Virginia Institute of 
Marine Science a program to examine and provide data for this 
introduction. The data will be generated over some period of 
time, 1 to 3 years as is necessary. Those data then will become 
part of the public process to make a determination whether or 
not it is an intelligent decision to bring in that Asian oyster 
or not to introduce that organism.
    So, our role is to make sure that the science is there so 
that a good public decision can be made at the appropriate 
point in time.
    Chairman Tom Davis. When is that time going to come, do you 
know?
    Mr. Bahner. That is somewhat difficult to decide, but at 
this point based on recommendations from the National Research 
Council and through the Scientific and Technical Advisory 
Committee of the Chesapeake Bay Program, both of those have 
recommended the need for studying this issue for about a 5-year 
period. I would say at this point the States are more 
aggressive in their schedule, wishing to have a decision in the 
1\1/2\ to 2 year timeframe. But, I believe everyone is agreed 
that we need to make sure we have adequate data, so that the 
public can make the right decision. So, probably in the order 
of 2 to 5 years is the best projection I can give you today.
    Chairman Tom Davis. What about the role of over-fishing, do 
you have any comments on that?
    Mr. Bahner. On the native oyster?
    Chairman Tom Davis. I would expand that to other areas too, 
because we have seen that the volume that is harvested each 
year has declined sharply. I think that is partly of because 
the population has declined.
    Mr. Bahner. Absolutely. I think the general consensus is 
that the stock of native oysters over the last 200 years was 
pretty seriously over-fished. In the 1960's, there was still a 
population, I am estimating at probably 20 percent of the 
historical highs when the diseases set in. Since then we have 
seen an increase in disease and we are struggling against that 
disease. As Mr. Murphy pointed out, if we can get the stock of 
native oyster back to a healthy state then we have some 
opportunity to bring that native population back, which is 
certainly a position that we hold along with other Federal 
agencies and State agencies. At this point I cannot tell you 
whether that strategy will be successful.
    Chairman Tom Davis. Mr. Phillips, in your testimony you 
referred to this study by the Geological Survey conducted 
joining with the CBP between 1997 and 2000 using the water 
quality model to assist in interpreting water quality changes 
at your river input monitoring site. As expected the manmade 
factors played a role in these changes. But the study also 
acknowledges the role natural factors, such as weather 
variations, have. In your conclusions, you reported the 
existence of a so-called lag time between the implementation of 
management practices that were designed to reduce nutrient and 
sediments sources and the verifiable results of your actions. 
How much of a lag time are we talking about and what kind of 
negative impact will this have on your ability to make both 
actual management decisions and a reliable report of concrete 
progress made? It seems to me that a sufficiently severe lag 
time could jeopardize the CBP's ability to meet the 2010 
deadline.
    Mr. Phillips. Yes, that study we looked principally at 
nitrogen which is major pollutant going in the bay, and we saw 
that about half the nitrogen once it is on the land surface 
actually slowly infiltrates down into the shallow ground water 
and then seeps back into the streams. When it is in this ground 
water, it can take 1 to 50 years to move, but on average about 
a decade. So, you can have a delay of up to about 10 years in 
some of these river basins between when you implement practices 
to reduce non-point sources of nitrogen, and when you finally 
see an improvement in the rivers to the bay.
    Chairman Tom Davis. Ms. Hanmer, the Chesapeake Bay 
Foundation testified that its projection for nitrogen flows 
into the bay between 1998 and 2002 are 16 percent higher than 
your projections. Then you also testified that the EPA has not 
done enough to institute permitting for sewage treatment plants 
in the region. How do you respond to these criticisms? What is 
your assessment of improvements that need to be made to point 
sources of pollution like sewage treatment plants to decrease 
pollution in the bay?
    Ms. Hanmer. If I could start with the first question of the 
different methods, I believe the CBF used a different time 
period than that used in our model, and because of that, got 
some different results. But both of the methods I think show a 
slight improving trend, they do show the reduction of nitrogen 
and phosphorus. I studied the method but I am not a scientist 
and so I am not able to tell you exactly what the differences 
are. But it has to do, I believe, with the years chosen and the 
method that was used.
    As far as sewage treatment plants are concerned, as I 
pointed out, about 50 percent of the reductions that have been 
made so far in nitrogen and more then 50 percent of the 
reductions that have been made in phosphorous are attributable 
to wastewater treatment plant improvements. About 56 percent of 
the flow from wastewater treatment plants in the basin is 
receiving some advanced nutrient removal technology. That is 
using a different method.
    We are basing our statement on the total amount of flow 
whereas I think the CBF statement talks about the number of 
individual plants. So, there is a difference there in how we 
report it. But we look at flow because we are interested in 
total flow.
    Most of that advance to date has occurred because of the 
voluntary cooperative program with the Chesapeake Bay, and 
especially when there was incentive funding available from the 
States. We recognize that we need to use our regulatory 
authorities under the Clean Water Act, the NPDES program. In 
the Chesapeake 2000 agreement specifically the executive 
council said that we were to marry the two programs, the 
cooperative approach of the Chesapeake Bay Program and the more 
regulatory approaches of the Clean Water Act. The regulatory 
basis in the Clean Water Act for regulating sewage treatment 
plants is to have good water quality standards. It is extremely 
difficult, it is almost impossible to enforce water quality 
standards that are not scientifically based.
    So, what we had to with great urgency was to change the 
water quality criteria to adopt a scientific basis for both the 
designated uses and also the criteria themselves--chlorophyll 
A, dissolved oxygen and clarity--so that we could provide the 
basis for the States to change their water quality standards. 
That is our base regulatory mechanism.
    We spent a while doing that with a collaborative process in 
order to get the States to all buy into the same numbers we 
were buying into. This speeds the standards adoption process, 
which can frequently take 5 to 8 years from the time the EPA 
issues a criteria document until the time it is adopted by the 
States. In this case we published the criteria document in 
April 2003. Delaware has already completed the process of 
changing its standards. The District of Columbia is near 
completion. Maryland is going out for the pre-publication 
review of its standards today, and Virginia has gone before its 
Water Control Board. So we are moving as quickly as we can to 
establish the water quality standards, proper regulatory base 
that is both scientifically sound and extremely useful for the 
regulatory process, and we will move quickly.
    The EPA published a permitting strategy for comment that 
also represents not just EPA's point of view, but is a document 
covering 64,000 square miles in six States and the District of 
Columbia. So, we have a pretty good consensus on where we go 
with permitting.
    The final thing I would say is that we are promoting 
watershed permitting, which is a much faster method of 
permitting than re-opening individual sewage treatment plant by 
sewage treatment plant permits. I think in a couple of years we 
will have solved the problem that we have of having the right 
water quality standards and that we will be in the permitting 
mode. The Maryland water quality standards, because of the way 
we operate our allocations, will actually drive permit limits 
in virtually the entire bay region. From New York and West 
Virginia through Pennsylvania through Maryland through the 
District of Columbia, and northern Virginia, it will be the 
Maryland water quality standards that will be the regulatory 
basis for our allocations and our permitting.
    Chairman Tom Davis. From a congressional point of view, 
what is the most important thing we can do. Ms. Swanson, talked 
about we have an opportunity in the transportation bill to 
review pieces of that on the impervious surfaces. On the 
agriculture bill obviously we can look at things like Blue 
Plains sewage treatment plant, specifically noted, sending 
dollars, from your perspective how would you rank the 
priorities in terms of what we do at the national level?
    Ms. Hanmer. Well, I would have to agree. A lot of the cost 
numbers came from the study that the EPA did to support the new 
water quality criteria. And it is a prodigious total of many 
billions of dollars. Based on our economic analysis, there are 
going to be areas where financial support will be absolutely 
necessary or the people who have to take the actions will not 
be able to take them. I think that the issue of stormwater 
controls, both in terms of public policy and public funding is 
also important in this rapidly growing region. This is our 
growing problem. We had an 8-percent increase in population in 
the decade of 1990 to 2000, but we had a 41 percent increase in 
impervious surface. Which means we are changing the hydrology, 
making it much more difficult; so the steps that Virginia has 
taken to strengthen its stormwater program are important. But 
stormwater enforcement and the stormwater program in general 
need attention throughout the basin, so that is a priority.
    The funding support I think for the agriculture sector is 
extremely important for a lot of reasons. The farming community 
is an essential part of the Chesapeake Bay region, but ours is 
a farming community of small farms and generally lacking in the 
financial capability to meet all the bay cleanup requirements 
with their private incomes.
    Chairman Tom Davis. I guess my question was a lot of this 
is State and local governments, zoning laws and the like. At 
the Federal level, we have our role too. And I think I will ask 
you and also Mr. Murphy, when we sat down to build a new road 
out to Dulles, put rail out to Dulles, the Governor sat down 
everybody and said here is what we think the State can do, here 
is what we need the locals to do, here is what we need the feds 
to do, we kind of all agreed. Do we really have an agreed 
partnership about this is a Federal, we need to do a, b, c, d. 
This is what the States need to do, this is what the locals, is 
it that well defined at this point, or are we still sitting 
around with general goals and guidelines?
    Mr. Murphy. I do not think it is well defined as to the 
share that each level of government should bear. In response to 
the question that you addressed to Ms. Hanmer, you get the 
quickest reduction for nitrogen and phosphorous through the 
point source side. Our limits of technology will allow sewage 
treatment plants to reduce their discharges to 3 milligrams per 
liter. And if you place the money that is necessary to achieve 
those retro fittings that would enable these sewage treatment 
plants to reach the limits of technology, you would make a 
quicker reduction in nutrients. Virginia, for example, over 32 
percent of the nitrogen entering Virginia's portion of the bay 
comes from point sources.
    Chairman Tom Davis. Does the Blue Plains study meet that 
criteria?
    Mr. Murphy. It does not, it has not reached that level of 
treatment at this point. And so, you could--if you put the 
money in this effort, it seems to me that you can get a larger 
bang for your buck initially. That does not mean that you do 
not continue to try to fund the non-point sources as well. But, 
if you place a greater burden on the point sources, for 
example, then you have the political problem of asking the 
sewage treatment plants to do more than they are contributing. 
And unless you give them the financial support to upgrade, it 
becomes a political and legislative problem.
    So, I would say that the funding is absolutely critical and 
we do need to try to refine the agreement between the Federal 
Government and the participating States and the District of 
Columbia. The Chesapeake Bay Program, through an executive 
council directive that was issued last December, created a blue 
ribbon financing panel that is being staffed by Ms. Hanmer's 
office. Former Governor Bliley of Virginia chairs that panel 
and it will make a report in October with regard to the funding 
that is required to achieve the goals that we have set for 
ourselves and the objectives that we hope to achieve. And I 
would suspect that report is going to outline and I think 
recommend some type of sharing responsibility and that perhaps 
will fall on the basis for a more specific agreement as to each 
level of government's responsibility.
    Chairman Tom Davis. And this falls across all different 
jurisdictional lines in the Congress? I mean although our 
committee can referee them. Do you want to add anything?
    Ms. Hanmer. I was going to make the point that in order to 
clarify what the funding responsibilities should be and any 
innovative methods anyone can find, we are staffing the blue 
ribbon panel and they should make their report by the end of 
October.
    Chairman Tom Davis. Thank you. Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman.
    If I have my figures right, I believe when John Smith came 
into the Chesapeake Bay in 1607, he could see down to 70 feet 
and they said that there were so many fish and oysters in the 
bay that it was a hazard to navigation. A lot has happened in 
400 years, has not it--it has. Let me follow along with what 
the chairman was talking about, about what Congress could do 
and this is for all of you. In your opinions, what are the 
three most important things that would accelerate the rate of 
progress in cleaning up the bay, money we know that, Ms. 
Swanson, you said more laws, is it more laws or is it just 
enforcing the laws we already have on the books?
    Ms. Swanson. Well, if I were to answer the question I would 
say certainly enforce the laws that we have on the books. We 
have an extraordinary set of laws on the books. In terms of new 
laws, they need to be very targeted laws that fill the gaps in 
the areas that we have not addressed. When I look at the 
difference between the Federal and the State and the local I 
think to some degree we have defined different 
responsibilities. We have not written a paper on it per se but 
some of it ends up aligning with tradition. For example, at the 
Federal level certainly in the past you have been a catalyst in 
many of the point source upgrades. And so we look to you for 
that continued assistance.
    Let me also, say that the scientists who came before our 
commission specifically told us that, for example, nitrogen is 
an excellent thing to work on from an ecological point of view, 
but also from a political point of view because if you get the 
nitrogen out of the water there is fairly quick response. Now, 
for non-point, you are dealing with lag time, but for point 
sources you can get it out of the water and within a year or 
two, according to the scientists, you can see a response in the 
water. So, I would say point sources at the Federal levels is 
an excellent example and it gets some of the political heat off 
the State legislators as well.
    The second thing is agriculture, its tradition at the 
Federal level nationwide and many of the practices that we are 
seeing as the biggest investment for your dollar are not right 
now cost shared at the Federal level, are not on the research 
agenda, and if they win in the Chesapeake Bay region, they win 
nationwide. So, I would say that is an area of Federal 
concentration.
    And the third is air. Whenever we try to address air 
issues, we are often told no, no, no, the Federal Government is 
dealing with that. And of course in the bay region about a 
third of the nitrogen is coming in through atmospheric 
deposition, a piece of which comes from of course within the 
region. But another significant piece comes from outside, so in 
a way I counsel the--and then of course stormwater which is the 
forgotten stepchild of everyone. And so, to me, it would be 
fortuitous at this point to put our blinders on and say we are 
going for these sources, and we are going for enhancement over 
what we do now.
    Mr. Schrock. Mr. Phillips.
    Mr. Phillips. The Congress has appropriated money to the 
Chesapeake Bay Program and other partner agencies to help 
monitor the improvements of water quality within the bay and 
its watershed. And at this time we have been working with all 
the States in the bay watershed to enhance the amount of 
monitoring throughout the bay watershed. We are about to sign a 
memorandum of understanding between the six States, District of 
Columbia, the EPA and the USGS to enhance that monitoring. 
Right now, we will be able to implement about 100 sites using 
various sources of funding. It is felt that at least 200 sites 
in the bay watershed are needed to help local governments 
understand their water quality improvements, as they put in 
point source and non-point source actions.
    So, more Federal support for monitoring within the 
watershed will be very beneficial and also, within the bay 
itself. The time schedule for monitoring does not allow for all 
the monitoring to assess the water quality criteria for the bay 
by 2010 at this time. So, Federal support for monitoring within 
the bay especially the shallow waters of the bay would be a 
huge help.
    Mr. Schrock. Mr. Bahner.
    Mr. Bahner. Yes, sir. The living resources that NOAA works 
with the States to protect and restore are highly dependent 
upon the water quality. So, as has been discussed here, water 
quality is absolutely the highest priority. In conjunction with 
that the restoration programs can contribute to that improving 
water quality. At one point, the discussion was that when all 
the oysters were there in the early 1600's the entire bay water 
was filtered somewhere in 1 to 3 days. Today the estimate is on 
the order of 1\1/2\ years. Any engineer that could filter the 
bay in 1 to 3 days would probably be able to take most of the 
pollutants out of the water in addition to the sediments.
    So, the restoration of oysters who are natural filters, 
biological filters, could go a tremendously long way to 
improving water quality. One of the issues with that is that 
probably 90 percent of the natural oyster habitat has been 
covered over by sediment from our clearing land and erosion 
upstream as well as shoreline erosion.
    Sediments have never really been addressed very strongly in 
this region, yet they have been talked about for 25 years. And 
it is my belief that a stronger sediment protection/restoration 
program is needed. Part of that is based on our public policy 
that we grew up protecting the land from being eroded by the 
water. But, if you take the other perspective that we are 
trying to protect the water of Chesapeake Bay we should be 
protecting the water from the land. If we change that policy, 
then we could use public money to do soft shoreline 
restoration/protection programs that would limit the shoreline 
erosion within the bay which contributes to the sediment load 
that ultimately smothers oyster beds.
    Mr. Schrock. Soft shorelines, rip-rap put down.
    Mr. Bahner. We would prefer not to use rip-rap right up 
against the shore. It would be better to have the breakwater 
offshore--well, the difficulty is that we have this continual 
erosion offshore by waves. If we had a breakwater off shore--
this is just one example of a technique--the waves would hit 
that, behind that we could use restoration techniques such as 
dredged material from a port. A small amount could be placed 
behind the breakwater as a beneficial use of that dredged 
material. So, it is not just waste material, you are actually 
using it for restoration. That site, the part that is under 
water could then be used to also rebuild submerged aquatic 
vegetation beds.
    The SAV restoration is also a critical part of this for a 
number of reasons. One that the grasses slow down the action of 
the water allowing sediment to deposit out, improving water 
quality, which strengthens the SAV. So, it is a cycle. You can 
also put emergent plants on land so that when you have a larger 
event, such as a hurricane, those grasses protect the higher 
shoreline from erosion. And from the hurricane last fall, where 
we had soft shoreline protected areas, those areas survived 
very well in the hurricane, whereas you had hardened shoreline, 
the water came over and washed out from behind it, and there 
was a lot of damage.
    So, I think there is a big opportunity for us to look at 
large scale shoreline restoration/protection programs. From 
NOAA's perspective, we collectively are at the point where we 
can go from small scale pilot studies that we have been doing, 
we have the knowledge and confidence to move to the large scale 
that is needed for this size of water body.
    Mr. Schrock. Mr. Phillips, do you have anything to add to 
that?
    Mr. Phillips. Well, it is a very interesting comment, 
because I have at my own residence in West Moreland County, 
about 3/4 mile of shoreline, and we have done some shoreline 
erosion control using the off water--the break waters. And I 
will have to say it has worked. Before we did our own shoreline 
management plan, I had a straight shoreline, it ran in a 
straight line. Now, it is a crescent shaped shoreline because 
we have these chevron shaped off water break waters, and the 
sand has built up behind them and we have planted grasses on 
that sandy area. And I will have to agree that during Hurricane 
Hazel that plan worked very, very well for us--Isabel, excuse 
me.
    Mr. Schrock. Isabel--I thought you said Hazel, I say whoa. 
[Laughter.]
    Mr. Phillips. I remember it though. I was in the U.S. Navy, 
stationed in Norfolk.
    Mr. Schrock. You said you have been here a long time I 
believe it.
    Mr. Phillips. That is true I was an officer in the U.S. 
Navy at the time of Hurricane Hazel stationed here in Norfolk.
    Mr. Schrock. It destroyed this place.
    Mr. Phillips. That is right.
    Mr. Schrock. Ms. Hanmer.
    Ms. Hanmer. To make a point, a really quick point about 
trees, trees are our best BMP. You have heard about sewage 
treatment plants, you have heard about farms, but the riparian 
forest buffer program was pioneered in the Chesapeake Bay 
Program by the Forest Service, that one of our most cost 
effective ways to meet the challenges is a vigorous program for 
riparian forest restoration. The tributary strategies contain a 
number of specifics like this. All the States have taken our 
allocations and our water quality criteria and they have 
developed a very specific plan for what needs to be done.
    So, the first thing we need is the funding to achieve the 
goals that the States have put in those tributaries strategies, 
and we need political will and public support. Visibility, like 
this is important. Even though we think we are doing a lot and 
we are writing tributaries strategies and we are doing 
standards, I do not think we have been able successfully to 
penetrate the minds of all the people in the watershed that 
this is not a problem that some big industry will solve. This 
is a problem that needs us all, and so political will and 
support. We have to enforce Federal, State and local laws 
especially for stormwater and sewage treatment plants with 
great vigor. And I think at the end of the day we really need 
this understanding and visibility that the bay is in trouble, 
and the bay needs to be cleaned up. It can be cleaned up and in 
fact if we do not act now it will only get worse.
    Mr. Schrock. This may be cruel and unusual punishment, but 
maybe every person who faces the bay needs to be forced to read 
your testimony.
    Ms. Hanmer. Sorry.
    Mr. Schrock. Now, I did, and it is amazing what I learned 
from that, that I did not know anything about. I assumed a lot 
and by reading your testimony you would be amazed how I am 
coming at this from a different perspective, I really am.
    The Chesapeake Bay Program has been around for what a 
couple of decades. Why all of a sudden the recent surge in 
criticism, any of you? Yes, ma'am.
    Ms. Hanmer. I would say it is exactly what you said that is 
what people will ask. They expect the government or the 
Chesapeake Bay Program to clean up the bay and it has been 20 
years. And especially the rainy weather in 2003, the unusual 
wetness led to dissolved oxygen problems in the bay that people 
had not seen for awhile and they were very shocked about it. 
Certainly, through our Web site you can follow those water 
quality monitoring results every 2 weeks, and so you ask 
yourself why is something not being done. I think that is the 
criticism.
    In our case, we can answer from a standpoint of the program 
activities what we are doing, but as you see it is not nearly 
enough. I do not believe that the Chesapeake Bay Program, those 
of us who are the bureaucrats and the State agencies can do 
this job by ourselves. I think we have the right plan and the 
right standards, and the right allocations, but we need help in 
mobilizing the actions on the ground.
    Mr. Schrock. That is a good segue to ask the Secretary the 
other question I was going to ask him. Overall do you believe 
that there is a constituency across State agencies regarding 
programs that deal with the Chesapeake Bay, and is there a 
fluid coordination among agencies as well as a coordination 
with other Chesapeake Bay States?
    Mr. Murphy. That is a difficult question, Congressman 
Schrock, because I think there is good news and bad. There is 
cross agency cooperation at the State level, but it is not 
perhaps as effective as it should be. The natural resources 
secretariat do not include all of the agencies that have an 
impact on water quality.
    Mr. Schrock. The DEQ for instance.
    Mr. Murphy. Well, DEQ is within the secretariat, but 
outside of the secretariat.
    Mr. Schrock. Outside, OK.
    Mr. Murphy. Under the Secretary of Commerce and Trade for 
example, there is the Department of Agriculture, and the 
Department of Forestry. These areas have a direct impact and 
yet there are in a different secretariat, so that the 
coordination between the agencies within the secretariat of 
Natural Resources and the agencies outside of the secretariat 
are not as strong as they should be. The Virginia Highway 
Transportation Commission, for example, the Department of 
Transportation, has a tremendous impact on water quality 
through its construction projects, and while there is 
coordination and cooperation between the agencies I think it 
could stand to be strengthened.
    Across inter-jurisdiction lines, yes, and Ms. Swanson as 
the executive director of the Chesapeake Bay Commission, can 
speak to that as well. There has been over the 20 years that I 
have been involved strong dialog and cooperation between the 
jurisdictions. On the other hand, there is a perception that 
some have acted more quickly and more effectively than others. 
And we need I think to continue to promote the cooperation, 
rather then pointing fingers and blame, we really need to try 
to--
    Mr. Schrock. Let me ask you and Ms. Swanson, how do our 
efforts compare with the efforts of other Chesapeake Bay 
States, somebody gave some figures a few minutes ago, I think 
it was you.
    Ms. Swanson. You mean Virginia's efforts.
    Mr. Schrock. Virginia's efforts compare with the other 
States we were talking about here.
    Ms. Swanson. Well, right off the bat, one of the things--
even before I answer that question, I think, you know in my 
time with the Commission if I have learned one thing it is 
never expect sameness.
    Mr. Schrock. Right.
    Ms. Swanson. And never believe that all the States are the 
same culturally, ecologically, socially, economically, by any 
measure. And never forget that the Chesapeake Bay region spans 
the Mason Dixon line. And as a result, there are entirely 
different forms of government. It is north meeting the south 
with town rule, meeting this broad swath, and so, the No. 1, is 
to immediately compare is an immediate error.
    Mr. Schrock. Good point.
    Ms. Swanson. Instead what I would say is that there are 
certain things that each State has led on. Virginia, clearly is 
in the lead on native oyster restoration efforts, for example. 
Virginia when it comes to point source changes. Maryland took 
an entirely incentive-based approach with this recent 
surcharge, you know, to essentially with money, incentivize the 
installation of nitrogen removal. Virginia is taking an 
entirely different tack. Obviously it will take considerably 
longer, but it is a regulatory approach. And so, if it works, 
you know, it stands to endure because it is not based on the 
availability of money.
    So, I could go on and on depending on the subject, whether 
it is crabs, oysters, and I would say that Virginia has indeed 
done a great deal to protect the Chesapeake Bay. Is it enough? 
No. That is why we are here.
    Mr. Schrock. Are you ready to go back to 1607.
    Ms. Swanson. No, I do not think question ultimately is 
monitoring versus monitoring or who is telling the truth or why 
did it all just now come to fruition, you know, this question 
of how far we have gone. I think the issue at the end of the 
day is by any measure modeling, monitoring, body of law, money 
availability, you measure it, and basically we are not far 
enough. And so, we need to address that. When you look 
nationwide, at other programs with multiple States, we are 
farther along than that.
    Mr. Murphy. May I Congressman?
    Mr. Schrock. Sure.
    Mr. Murphy. In response to Ann's comments regarding the 
different approaches that Virginia and Maryland have taken with 
regard to nitrogen and phosphorous reduction. The fact that we 
do have these regulatory programs underway, that does not mean 
that I feel or that I would not recommend that the State 
appropriate funds to assist the localities in meeting those 
regulatory funds. I do not mean by instituting the regulatory 
programs to indicate that I feel that the cost of implementing 
those regulations should be borne solely by the ratepayer and 
the private land owner. I think that there is an appropriate 
role for the Federal and State governments to make in assisting 
the localities in achieving compliance with those regulations.
    Mr. Schrock. Thank you, Mr. Chairman.
    Chairman Tom Davis. Well, thank you very much. I think that 
is all the questions we have for this panel, it has been great 
testimony. We appreciate it, hopefully we can take some action.
    So, I will dismiss this panel we will do a 5-minute recess 
and then convene the next panel.
    [Recess.]
    Chairman Tom Davis. We are going to move to our second 
panel. Theresa Pierno, who is the vice president for 
Environmental Protection and Restoration, Chesapeake Bay 
Foundation. Donald Boesch, who is the president, Center for 
Environmental Science, University of Maryland. Linda Schaffner, 
associate professor, Virginia Institute of Marine Science. We 
have Eileen Hofmann, the professor of ocean, Earth and 
atmospheric sciences, Old Dominion University. Frances Porter, 
executive director, Virginia Seafood Council, and Mark Wallace, 
Eastern Shore Watermen's Association.
    It is our policy that we swear you in before you testify. 
So if you rise and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Your entire statements are in the 
record you do not need to use your full 5 minutes, but we have 
a light here in the middle that has green for your first 4 
minutes and then it turns orange after 4, and when you see it 
turn red, if you try to move to summary, we can move through 
this crisply. We have everybodys testimony read and digested 
here that is in writing so, you can emphasize the main points 
in your oral testimony. We will not gavel should you go over 
though.
    Thank you very much for being with us.

 STATEMENT OF THERESA PIERNO, VICE PRESIDENT FOR ENVIRONMENTAL 
      PROTECTION & RESTORATION, CHESAPEAKE BAY FOUNDATION

    Ms. Pierno. Thank you, Chairman Davis, and thank you 
Representative Schrock for having me here today. It is a 
pleasure to speak on behalf of the Chesapeake Bay Foundation.
    It is really our hope that the additional attention that 
the news and certainly unfortunately, a lot of the effects of 
water quality have brought on this issue will really help to 
guide additional resources and efforts and leadership so that 
we can really see the changes and the progress that we need to 
see in order to really have a restored bay. My fear is that in 
my lifetime if we continue at the same rate of progress that we 
have been going the last 20 years, then I will not live to see 
a restored bay. And in fact, with the additional growth as 
projected and the changes in land use it is very possible that 
it might even be a further deteriorated Chesapeake Bay and 
tributaries.
    So, I really do appreciate the attention and certainly your 
leadership to this issue. I think that one of the things I want 
to talk about right away and get out of the way is really the 
modeling and monitoring issue. You know, in our opinion the 
model is an excellent tool and we say that in our testimony. 
But, we think it really has been used in a way that has not 
been as beneficial and has been used really as an expectation 
far more then it is capable of. And so, therefore, I think the 
public in general and even our leadership and our legislators 
are really under a false premise that the Chesapeake Bay is 
really improving, and a lot of the attention and communication 
over the last several years has been very positive. In fact, 
recently I had a reporter say to me that it was not until the 
Washington Post article recently that they were given the 
approval to cover this story because their editor said, why 
should we talk about the Chesapeake Bay, it is doing well. And 
so, I think it is really critical if we are going to be calling 
for the kinds of resources that are going to be necessary to 
turn and the tide on this and really see the improvements we 
need, it is going to take a little bit public understanding and 
education as well as our leadership to really understand the 
critical need here.
    Certainly, the debate is not about whether we have seen 
progress or not. Certainly there has been some progress, but 
part of the problem is due unfortunately to the increase in 
population that and an ever-increasing loss of forest and 
wetlands that continue to make it more difficult. And that is 
just going to require more and more effort. In fact, what we 
have found and we have given you a copy of our manure report as 
well as our sewage report along with the state of the bay that 
the Chesapeake Bay Foundation does.
    And what we found is there are some things that we can be 
doing and that we need to do very quickly. We cannot afford to 
continue to take an approach that allows for a lengthy time 
period to take place before we see action. We know with sewage 
treatment plants there is technology today. Ms. Hanmer 
basically suggested that about 96 wastewater treatment plants 
were using BNR and have been upgraded and that is correct. But, 
unfortunately that is not the latest and best technology that 
has been out for many years now, and the reality is about 98 
percent of the wastewater treatment plants in the watershed are 
not using the best technology and have not upgraded to what is 
considered 3 milligrams per liter.
    So, I think the reality is we need resources and we need 
attention to this and quite frankly we need EPA to enforce the 
Clean Water Act and to require permit limits that do address 
nitrogen and phosphorous limits in wastewater treatment plants. 
And in fact, more recently in December of last year, we 
petitioned EPA requesting that they do just that and we have 
still not gotten a formal response from EPA. So, you know what 
we are saying is certainly nothing new and nothing you have not 
heard. Agriculture is a major impact, we need further support 
and there are things that you can do. I concur with Ms. 
Swanson, when she went through her list related to the farm 
bill, that is also in our testimony, as well as the action for 
the sewage treatment plants. Stormwater, through the Federal 
transportation bill, and safety. There is an opportunity to add 
additional support for urban stormwater reductions. As well as 
air and if we do not take action and I mean action we talked 
about tripling the needed resources. It is very difficult for 
our agencies, our Federal agencies, to stand up here and say 
that sorry we are not getting the resources we need. And if we 
continue to get a lack of resources, we are not going to be 
able to do the job that we have all committed to.
    That is the reality at the State and Federal level, and I 
am here to say please understand the critical need and that we 
certainly support the efforts and the work that has been done 
and we have been part of a lot of that work. And we are not 
here to criticize that. But, we are here to ask you and I think 
from what I have heard, your really very thoughtful questions, 
that you do understand the critical need. And that we would ask 
you to do whatever you can to get those resources flowing to 
the Chesapeake Bay watershed so that we can really see the 
kinds of recovery and improvement that we all hope for.
    Thank you.
    Chairman Tom Davis. Thank you very much. Dr. Boesch.
    [The prepared statement of Ms. Pierno follows:]

    [GRAPHIC] [TIFF OMITTED] T6635.038
    
    [GRAPHIC] [TIFF OMITTED] T6635.039
    
    [GRAPHIC] [TIFF OMITTED] T6635.040
    
    [GRAPHIC] [TIFF OMITTED] T6635.041
    
    [GRAPHIC] [TIFF OMITTED] T6635.042
    
    [GRAPHIC] [TIFF OMITTED] T6635.043
    
    [GRAPHIC] [TIFF OMITTED] T6635.044
    
    [GRAPHIC] [TIFF OMITTED] T6635.045
    
    [GRAPHIC] [TIFF OMITTED] T6635.046
    
     STATEMENT OF DONALD F. BOESCH, PRESIDENT, CENTER FOR 
         ENVIRONMENTAL SCIENCE, UNIVERSITY OF MARYLAND

    Mr. Boesch. Yes, Chairman Davis and Mr. Schrock, it is 
really a pleasure to be here. I thank you for your invitation.
    That this opportunity comes at historic Fort Monroe is 
particularly meaningful for me. In 1968, I undertook, as an 
extremely young scientist I would indicate, my first scientific 
research right here in Hampton Roads, just on the other side of 
the Spit. And the publication of that research really launched 
my career, so this area, Hampton Roads in particular, has a 
very strong meaning for me. And I, like Ms. Pierno, hope that I 
can see the restoration of the bay on my watch, as a scientist 
first and living in this region.
    As you know by now, the principal cause of the rapid 
degradation of the Chesapeake Bay ecosystem that was observed 
during the 1970's and 1980's after I really started my research 
actually, was the multifold increase in loading up the estuary 
with nutrients, particularly nitrogen. And you have heard many 
different perspectives on how we are making progress in 
reducing nutrient loads to the bay. We know that nitrogen 
inputs from municipal wastewaters for example, have in fact, 
been reduced by 23 percent since 1985, this is no mean feat 
given the fact that we have had an increase in population and 
wastewater volumes to handle, increasing by 45 percent. So, we 
should recognize that we have made significant progress in a 
number of areas.
    Where we seem to have some confusion is with regard to the 
non-point source run off which dominates the inputs of nitrogen 
and phosphorous. And this is where we have to get the modeling 
and monitoring right to understand exactly what we are doing 
and the effect that we are having.
    For a large part of the watershed drained by rivers 
monitored by the USGS, concentrations of nitrogen and 
phosphorous discharges have generally been declining, at least 
when adjusted, as Mr. Phillips indicated, for river flow. While 
the watershed model obviously also estimates a downward trend 
in nutrient concentrations, the actual amount of the decrease 
differs. And it is important to know what it really is and why 
they are different and how we can improve these estimates as we 
move along. And to improve our basis of estimates of progress 
in the real world.
    An important point made in greater detail in my written 
testimony and in the testimony of Ms. Pierno, gets lost in the 
use of model estimates to track progress. That is, despite our 
efforts, the total amount of nutrients actually reaching the 
bay over the past 10 years or so is more or less the same as 
during the early benchmark of the years of the Chesapeake Bay 
Program. This was as many witnesses earlier indicated because 
of the fact that we had this period of extremely high climatic 
variability with river inflow on the average higher than in the 
benchmark years or over the long run.
    As an analogy let me see if I can help you understand this. 
It is as if you were trying to cut back on your sugar intake 
and you succeeded in using say 15 percent less sugar in your 
cup of coffee.
    Mr. Schrock. Bite your tongue.
    Mr. Boesch. But somehow you were forced to drink 15 percent 
more coffee so your total sugar intake would not change, even 
though you have been successful in reducing your sugar per cup 
of coffee. So it is important to understand that, because that 
is what the bay actually has been seeing, rather than what we 
have been projecting on the basis of average-year models. And 
this explains to a great degree why we have not seen more 
success from our efforts in the bay in terms of improved signs 
of recovery.
    As it was discussed in more detail in my written testimony 
for two important indicators of the health of the bay, the 
extent of serious oxygen depletion or hypoxia during the summer 
months and the abundance of submerged grasses, I have not seen 
convincing evidence of changes or trends for the bay as a whole 
that cannot be clearly explained by variations in fresh water 
inflow rather then the results of management actions to reduce 
nutrient inputs. Hypoxia shrinks and grasses spread in dry 
years or as a result of dry years. When this and other 
ephemeral phenomena such as population explosions in mussels as 
we have in some tributaries of the upper bay occur, we should 
avoid irrational exuberance, and the temptation to claim 
success. On the other hand, when hypoxia expands and grasses 
contract during very wet years we should resist inconsolable 
depression and placing blame. This is the reality of what we 
have to deal with.
    Bay program models have been designed to answer, ``what 
if,'' or more appropriately, ``what will it take'' questions 
important in setting program goals. The recent application of 
watershed and estuary models to determine the new Chesapeake 
Bay 2000 nutrient reduction goals has been the focus of 
government agencies, Ms. Pierno and I both agree, are exemplary 
in the inclusion of strong scientific expertise and peer 
review.
    There is scientific consensus that achieving these nutrient 
reduction goals will achieve the desired restoration outcome. 
The current controversy, therefore, regarding estimates of 
progress to date should in no way undermine public confidence 
in the use of these models for setting these goals as we move 
forward.
    However, the public is misled by statements that nutrient 
loading has actually been reduced by certain amount based on 
watershed model estimates and accomplishments. There are 
obviously uncertainties about the efficiencies and levels of 
implementation and management practices. Furthermore, there are 
lag times as was talked about earlier and inter-annual 
variations that are not represented in the models and these 
need to be addressed.
    The Chesapeake Bay region endowed by the largest and most 
accomplished community of estuarine scientists in the world. 
This is in no small measure the reason we have gotten this far 
in getting the understanding of the nature of the problems and 
the challenges that we need to address. From both the 
government and university sides, intellectual and material 
resources are fully engaged in advancing knowledge and critical 
assessment to advance bay restoration goals. And specifically 
we need to work with the agencies in improving these models and 
the models of the monitoring results.
    All of the witnesses before you agree on two things, the 
Chesapeake 2000 goals are worthy and we are seriously behind 
the schedule in meeting water quality restorations by 2010. Let 
me close with an analogy, another analogy, that maybe helps you 
understand the nature of the problem. We are at a football 
game, and this is based on--an analogy based on nitrogen, our 
progress with nitrogen. We are behind 42 to 14, it is the 
beginning of the fourth quarter and we are still trying to run 
the ball up the middle. We need to not only play strong defense 
to keep the other side from scoring, that is for example, 
really kind of control and stop sprawl which will make the 
challenge even more difficult. But we need to throw long, we 
need to go long, in Maryland we recently did that. Governor 
Ehrlich and the General Assembly with strong popular support, 
public support, passed a restoration fund that basically 
ratepayers pay for the sewage treatment improvements. So, we 
should be going, once we get the ball in the end zone to 3 
milligrams per liter limits, the limits of practical technology 
as a result of that.
    The other area where the Federal Government can assist us 
just to underscore, agriculture. Agricultural policy and what 
farmers have to deal with is largely set by Federal policies 
with respect to subsidiaries and rules and regulations and the 
like. And also, air quality, please pursue rigorously the air 
quality objectives under the Clean Air Act amendments and we 
will gain a significant reduction to the nitrogen input as a 
result.
    Thank you, very much for the opportunity.
    Mr. Schrock. Mr. Chairman, may I make one quick comment? 
One of the nicest things you have in your testimony that you 
did not share with people, I am going to. You said in March 
1970 I stood with my young wife in front of the Chamberlain 
Hotel right down the street. As we watched a total eclipse of 
the sun over Willoughby Bay, an experience that overwhelmed us 
with awe for the natural world. That is really neat. I agree 
with you.
    Mr. Boesch. I also said that we will not see another one of 
those in our lifetime. Maybe, we will see the bay restoration.
    Mr. Schrock. I was trying to be upbeat about this.
    Chairman Tom Davis. Are we still in the fourth quarter, or 
are we just in the second half?
    Mr. Boesch. Pardon.
    Chairman Tom Davis. Are we in the fourth quarter, or are 
just in the second half?
    Mr. Boesch. If we start the beginning of the game in 1987, 
when the bay States said we are going to reduce nutrients to 
the Chesapeake Bay, and the end of the game is 2010 we are just 
about at the end of the third quarter.
    Chairman Tom Davis. Dr. Schaffner.
    [The prepared statement of Mr. Boesch follows:]

    [GRAPHIC] [TIFF OMITTED] T6635.047
    
    [GRAPHIC] [TIFF OMITTED] T6635.048
    
    [GRAPHIC] [TIFF OMITTED] T6635.049
    
    [GRAPHIC] [TIFF OMITTED] T6635.050
    
    [GRAPHIC] [TIFF OMITTED] T6635.051
    
    [GRAPHIC] [TIFF OMITTED] T6635.052
    
    [GRAPHIC] [TIFF OMITTED] T6635.053
    
  STATEMENT OF LINDA SCHAFFNER, ASSOCIATE PROFESSOR, VIRGINIA 
                  INSTITUTE OF MARINE SCIENCE

    Ms. Schaffner. Chairman Davis and Mr. Schrock, thank you 
for inviting me to speak to you today. I am associate professor 
of the School of Marine Science, at the College of William and 
Mary and the Virginia Institute of Marine Science. I also serve 
as the president of the Estuarine Research Federation, which is 
an international scientific society that has a membership of 
over 2,000 scientists, educators, and managers who are 
committed to the acquisition and application of sound 
scientific knowledge to sustain the integrity of estuarine and 
coastal systems.
    I am going to take a slightly different tack in my 
testimony and I am not going to focus too much on things that 
other people have said a lot about already. I want to bring up 
some other things that I think are important as well.
    Just 4 months ago, the U.S. Commission on Ocean Policy 
released its draft findings and recommendations that we need a 
coordinated and comprehensive national ocean and coastal 
policy. The Commission found abundant evidence of degraded 
water quality depleted fisheries and vanishing wetlands 
throughout the Nation's coastal and estuarine areas and they 
determined that the problems require urgent attention. So, I 
can assure you that we are not alone in our concerns about the 
state of our estuary.
    As a scientist who has been working in the bay community 
for over 20 years, the multiple indicators of bay health lead 
me to conclude that the Chesapeake Bay is a significantly 
degraded ecosystem and I made a medical analogy, the bay has 
cancer, not a common cold. But, the bay is resilient, and I 
believe it can be restored. I am not going to touch on modeling 
and monitoring, I do agree with the comments that have been 
made by Dr. Boesch.
    I do want to say that the U.S. Commission on Ocean Policy 
calls for ecosystem-based management of ocean and coastal 
resources. And this is always been a major goal of the 
Chesapeake Bay Program, which really since its inception has 
been admired and emulated throughout the United States and 
worldwide.
    Just last year I was up in Maryland when a group from 
Thailand came over to learn how to run a watershed management 
program. The program has successfully brought scientists, 
managers, industry, and citizens to the table to discuss 
complex environmental issues, and develop strategies for 
dealing with these issues. I also want to emphasize to you that 
academic scientists have significantly contributed to the 
success of the bay programming objectives. They provide the 
program with unbiased credible and up to date scientific 
information and a point that I did not state clearly enough in 
my written testimony is that they provide essential peer 
review. Much of the focus today has been on the funding, we 
need to support nutrient reductions.
    I also want to use this opportunity to stress the 
importance of strength in funding for science research efforts. 
Much of the research conducted by the bay's scientists has been 
supported by funding coming from outside the bay program via 
other mission oriented agencies, for example, NOAA, and USGS, 
other parts of EPA, and the National Science Foundation which 
plays a key role in supporting basic research. These agencies 
could see budget declines of 5 to 10 percent or more annually 
over the coming years. The U.S. Commission on Ocean Policy 
expressed concern that the Federal agencies supporting ocean 
and estuary research are in fact chronically under-funded.
    We in the bay community cannot afford these declines in 
research support at a time when we face increasingly complex 
scientific questions and management issues. We have been 
focusing on nutrients today, but looming on the horizon are 
problem issues such as harmful algae blooms, non-native 
species, the sediment loading we talked about, and fisheries 
collapse. So, you our Members of Congress can help by voting 
for increased appropriations for science funding in these 
agencies.
    There is no question that achieving the ambitious goal of 
restoring the Chesapeake Bay to a healthy sustainable ecosystem 
will require increased scientific capacity in this Nation. 
Recognizing the challenges that we face in managing our ocean 
and coastal resources, the Ocean Commission calls for the 
creation of a new national ocean policy framework, better 
coordination among Federal agencies, a doubling of Federal 
research investments in ocean science, and improved 
environmental education. All of these recommendations have 
relevance in our discussion about how to accelerate the 
restoration and protection of the Chesapeake Bay.
    Others have spoken in a more informed way on the specific 
policies and levels of funding we need to obtain Chesapeake Bay 
2000 goals. But it is clear to me that we need both political 
will and strength in financial commitment. There is no time 
like the present for action particularly for those of us that 
are concerned with the Chesapeake Bay.
    Thank you.
    Chairman Tom Davis. Thank you very much. Ms. Hofmann.
    [The prepared statement of Ms. Schaffner follows:]

    [GRAPHIC] [TIFF OMITTED] T6635.054
    
    [GRAPHIC] [TIFF OMITTED] T6635.055
    
    [GRAPHIC] [TIFF OMITTED] T6635.056
    
    [GRAPHIC] [TIFF OMITTED] T6635.057
    
    [GRAPHIC] [TIFF OMITTED] T6635.058
    
STATEMENT OF EILEEN HOFMANN, THE PROFESSOR OF OCEAN, EARTH AND 
         ATMOSPHERIC SCIENCES, OLD DOMINION UNIVERSITY

    Ms. Hofmann. Chairman Davis, Congressman Schrock, thank you 
for the opportunity to appear before you today. I am a 
professor in the Ocean, Earth and Atmospheric Sciences 
Department at Old Dominion University.
    My comments are in three parts and provide an academic 
perspective on modeling and monitoring. The first part 
addresses the importance of maintaining modeling and monitoring 
programs. The second part describes an ongoing effort to 
advance modeling of the Chesapeake Bay system. And the final 
part of my comments provides an example of a new direction for 
modeling in the Chesapeake Bay system.
    Predictions of nutrient loadings and the extent of regions 
of low-oxygen water in an estuary such as Chesapeake Bay are 
difficult at best. The recent controversy suggests that the 
Chesapeake Bay modeling and monitoring program results are 
incompatible.
    The reliance on models versus monitoring data for assessing 
the state of the system has long been debated within the marine 
science community. It is now recognized that both are needed. 
Combining data via models provides a powerful approach for 
understanding marine systems and for making predictions about 
future States. To suggest that the Chesapeake Bay Program 
abandon or lessen its reliance on models in favor of a data-
only approach is not appropriate and is not in keeping with the 
current state of understanding and scientific abilities. So, 
what can be done to better integrate the bay program modeling 
and monitoring efforts? An effort now ongoing in the Chesapeake 
Bay academic and research communities provides an approach for 
how this might be done and that brings me to the second part of 
my comments.
    In the 1990's, the scientific community of the region 
participated in a review, through the Chesapeake Bay Scientific 
and Technical Advisory Committee, of the Chesapeake Bay model. 
The committee report noted that the modeling and monitoring 
components of the Chesapeake Bay Program were not well 
integrated, that the Chesapeake Bay circulation water quality 
watershed models did not have the ability to include in 
simulations the effects of processes such as variations in 
freshwater inflow, which we have heard a lot about today. And I 
also think variability in winds which are known to influence 
nutrient loading and dissolved oxygen distributions, and that 
the reliance on a single model structure had slowed scientific 
advances and reduced estimates of confidence.
    A positive result of this review was the development of a 
grassroots modeling effort within the Chesapeake Bay scientific 
community, which has now become the Chesapeake Community 
Modeling Project. The goal of the Chesapeake Community Modeling 
Project is to improve the ability to model and predict physical 
and biogeochemical processes in the Chesapeake Bay and its 
watershed. The foundation of this effort is the collaborative 
open source research oriented modeling framework designed to 
focus and coordinate the intellectual resources of the 
Chesapeake Bay research institutions and the broader scientific 
community. The approach is designed to foster scrutiny of all 
aspects of the models and simulations including assessments of 
projections derived from single models that would likely 
underlie Chesapeake Bay restoration. And this is something that 
the research and academic community felt like had been missing 
in the Chesapeake Bay modeling program.
    The Chesapeake Bay Program is a partner in this new effort. 
There is much that the research community and the bay program 
can provide to one another and the last part of my comments 
highlights one example.
    The Chesapeake Bay Program is in a unique position of 
having, through its monitoring program, a robust data set with 
space and time resolution that is adequate for developing and 
implementing what are called data assimilative models. These 
are models that incorporate observations into models to adjust 
the output toward observation. This is an approach used 
routinely in numerical weather forecasting and ocean 
circulation simulations. This approach helps to adjust the 
model and it includes information in it that allows things like 
freshwater flow variations to influence model simulations. The 
process of development of data assimilative models may 
potentially result in revisions to dynamics included in the 
circulation water quality and watershed models, thereby making 
comparisons with previous models difficult and perhaps calling 
into questions previous model-based conclusions. That latter is 
appropriate, enabling open discussion for science-based 
resolution, the most beneficial practices for bay restoration.
    In summary, the development of data assimilative models is 
just one example of the change needed in infrastructure, 
philosophy, and approach for any modeling program. The need to 
provide accurate predications with far reaching policy and 
social implications make it imperative that any Chesapeake Bay 
modeling program be aware of and take full advantage of current 
practices and advances in marine resource modeling. This will 
require a long term sustained funding effort.
    And in summary I would like to say thank you for the 
opportunity to address you today, and I will be happy to answer 
any questions that you may have.
    Chairman Tom Davis. Thank you very much. Ms. Porter.
    [The prepared statement of Ms. Hofmann follows:]

    [GRAPHIC] [TIFF OMITTED] T6635.059
    
    [GRAPHIC] [TIFF OMITTED] T6635.060
    
    [GRAPHIC] [TIFF OMITTED] T6635.061
    
    [GRAPHIC] [TIFF OMITTED] T6635.062
    
    [GRAPHIC] [TIFF OMITTED] T6635.063
    
    [GRAPHIC] [TIFF OMITTED] T6635.064
    
    [GRAPHIC] [TIFF OMITTED] T6635.065
    
    [GRAPHIC] [TIFF OMITTED] T6635.066
    
    [GRAPHIC] [TIFF OMITTED] T6635.067
    
    [GRAPHIC] [TIFF OMITTED] T6635.068
    
    [GRAPHIC] [TIFF OMITTED] T6635.069
    
    [GRAPHIC] [TIFF OMITTED] T6635.070
    
    [GRAPHIC] [TIFF OMITTED] T6635.071
    
    [GRAPHIC] [TIFF OMITTED] T6635.072
    
    [GRAPHIC] [TIFF OMITTED] T6635.073
    
    [GRAPHIC] [TIFF OMITTED] T6635.074
    
    [GRAPHIC] [TIFF OMITTED] T6635.075
    
 STATEMENT OF FRANCES W. PORTER, EXECUTIVE DIRECTOR, VIRGINIA 
                        SEAFOOD COUNCIL

    Ms. Porter. I am Frances Porter, of the Virginia Seafood 
Council. The council is a trade association, non-profit and 
incorporated, which represents the interest of commercial 
fishing in Virginia. Membership includes packers, processors, 
shippers, harvesters, and aquaculturists of Virginia seafood, 
and it includes work in both the bay and on the ocean.
    A member of the commercial fishing industry will speak next 
and will tell you that the health of the Chesapeake Bay is 
negatively impacting his livelihood. Pollution in the bay is 
believed to be a strong contributor to the decline in fish, 
crab, and oyster populations. Fish, crabs, and oysters are, of 
course, vital parts of the food chain in the bay. Oysters are 
vital to the filtration of the bay. If an oyster packer were 
here he would give you an impassioned speech on the critical 
situation in the oyster industry and document it with the facts 
which you have heard from someone else today that we harvested 
15,000 bushels of oysters in Virginia in 2003, compared to 1 
million bushels 18 years ago in 1985.
    As a representative of the commercial fishing industry, I 
simply cannot separate economics and ecology. It is important 
for members of this committee to understand that the commercial 
fishing industry contributes $450 million to the economy of 
Virginia annually, that 30 counties and 8 cities are at some 
level economically dependent on the seafood industry and that 
about 17,000 persons are employed in the industry and industry-
related jobs.
    We have certainly all agreed already today that the 
development in the watershed is a major problem for the health 
of the bay. More cars, people, houses, lawns, and far less 
timberland. Are sewage plants sufficiently regulated and 
routinely monitored regarding their discharge? Has the rate of 
development along the shoreline been slowed? Is there 
measurable restoration of the watershed? Are farmers adhering 
to the best management practices in cultivating and fertilizing 
their crops? Those are questions to be answered by the 
scientists, regulators and environmentalists, but they are 
important issues for the fishing industry. Through the national 
press, local press, trade journals, and magazines I read weekly 
about the health of the bay, with conflicting reports about 
measurable progress versus reports of slow to no progress, 
scientifically, the Virginia Seafood Council is not qualified 
to judge the progress of the clean up of the bay. But 
practically, we see the steady decline in the living resource. 
Living resources are an excellent measure of the health of the 
bay.
    It is best that I talk about the council's efforts to 
restore one living resource, the oyster, to the bay. The oyster 
has great economic value to the Commonwealth of Virginia. Far 
greater is its ecological value to the bay. And you have 
already heard that a healthy oyster resource is reported to 
have the capability to filter the entire bay in a day. Imagine 
a consistently heathy, constantly growing oyster resource 
pumping the nutrients through its gills, purging the bay day 
after day after day.
    The council has been on a parallel track to restore the 
native oyster and introduce the non-native oyster. To renew the 
native oyster, we continue to plant shells, move seeds, and 
work existing beds. We have developed huge reefs and have 
supported moratoriums on harvest. Since 1990, private oyster 
growers and the State of Virginia have spent millions on 
millions of dollars in restoration efforts. There is some 
marginal progress in the native efforts, but for the most part, 
restoration is stalled and the oyster industry is dying.
    Since 1995, the council has been engaged in a project to 
introduce a non-native oyster to the bay. You have heard Dr. 
Bahner and Secretary Murphy talk about that. In conjunction 
with the Virginian Institute of Marine Science and with the 
approval of the Virginia Marine Resources Commission, we have 
worked meticulously in conformance with State, Federal and 
international laws and protocols, to conduct in water testing 
of a non-native oyster. We have had tremendous success in 
finding an oyster that grows rapidly, resists disease, and 
tastes like the Virginia oyster. To date, we have no evidence 
that it will introduce any known pathogens to the bay and no 
evidence that it will damage the food chain in any way.
    However, our project has been met with intense scrutiny by 
numerous Federal agencies including the Army Corps of 
Engineers, the EPA Chesapeake Bay Program, U.S. Fish and 
Wildlife Service, and NOAA, National Marine Fisheries Service. 
An extension of our existing permit was an intense 5 month 
negotiating process between Federal agencies, the council and 
our advisors at VIMS. The extension now requires new risk 
mitigation strategies and numerous additional conditions to the 
original permit. This is a clear indication that the agencies 
are striving to prevent any further damage to the bay by the 
introduction of a non-native oyster. The entire non-native 
oyster permitting process is about risks and benefits. The 
emphasis belongs on the ecological benefit that a renewed 
oyster population will bring to the bay. Let me reiterate that 
a healthy oyster population will filter the bay daily and 
contribute to clean water.
    While we are moving steadily toward water renewed oyster 
resource with the Crassostrea ariakensis, we are not moving 
rapidly. We are waiting for the completion of the environmental 
impact statements that you have heard about. And economically, 
we feel that time is running out to restore this industry. 
Ecologically, the sooner we have a natural, filter feeder 
resource in the bay the better.
    I believe the Federal agencies, who have worked with us on 
this project also understand the value of the oyster resource. 
And I hope they will expedite all the processes in order to 
allow the oyster in the bay next year.
    Chairman Tom Davis. Thank you very much. Mr. Wallace.
    [The prepared statement of Ms. Porter follows:]

    [GRAPHIC] [TIFF OMITTED] T6635.076
    
    [GRAPHIC] [TIFF OMITTED] T6635.077
    
    [GRAPHIC] [TIFF OMITTED] T6635.078
    
STATEMENT OF MARK WALLACE, EASTERN SHORE WATERMEN'S ASSOCIATION

    Mr. Wallace. Chairman Davis and Congressman Schrock. I 
appreciate the opportunity to speak on behalf of the Eastern 
Shore Watermen's Association. I am Mark Wallace representing 
the Eastern Shore Watermen's Association that has an annual 
membership of around 80 individuals and represents 757 
commercial fishermen who live on the Eastern Shore of Virginia.
    In 2002, Virginia's commercial fishermen harvested $100 
million in finfish and shellfish. In the last decade, the 
fishing industry has seen numerous regulations to reduce over-
harvesting. These regulations have led to much hardship for 
individuals who rely upon fishing for their livelihood. While 
over-harvesting may negatively affect the industry, we feel 
this is a secondary problem aggravated by poor water quality.
    The hard clam aquaculture industry is also dependent upon 
clean water. In 2000, this industry had a local economic impact 
of $40 million in the State of Virginia. Aquaculture offers an 
alternate way for commercial fisherman to make a living while 
alleviating pressure on native stocks. It is important to 
expand the aquaculture industry to other species. For instance 
the Ariakensis oyster is being studied to explore its 
feasibility as an aquaculture species. The Ariakensis has an 
economic potential for fisherman, and the ability to improve 
water quality through filtration.
    The areas that we feel need the most attention are 
stormwater retention from agriculture operations and shoreline 
development. Both of these pose a significant threat to the 
fishing and aquaculture industries. In the agriculture industry 
we would like to see the use of stormwater retention sites, 
properly engineer these sites could prevent the direct 
accumulation of nutrients and toxins in the water ways. 
Development of agricultural land should be handled in a way 
that maximizes open space to absorb nutrients from concentrated 
areas of development.
    Programs should be enacted that encourage individuals to 
leave open spaces undisturbed. Focus should also be directed at 
waterways that are not already imperiled. A good example of 
this is the Mattaponi River on the coastal side of Virginia. 
This river supports an aquaculture industry that produces 200 
million hard clam seed in 2003. The Mattaponi River is 
currently clean enough to support the industry, the cleanliness 
is being jeopardized by shoreline development and installation 
of a mass drain field. To us it seems it would be much easier 
to maintain a clean Mattaponi River than to clean up a polluted 
waterway.
    I have been involved in operations on this river for 8 
years. I have seen the effects runoff can have on production. 
To me it makes no sense to destroy an industry because there is 
a lack of sound land management.
    Finally, let me offer a couple examples of hardships 
affecting the fishing industry. I serve as the secretary on the 
harbor committee of my town. In 1989, there were 103 stalls 
available for lease; of these 103 stalls, commercial fishermen 
occupied 59. In 2004, this number is down to 17 individuals who 
are active in commercial fishing and aquaculture. The harbor 
has shifted from a commercial harbor that was put in place by 
local commercial fishermen to a recreational harbor. When the 
commercial fishery was very active, it supported a small store 
by the harbor. As the number of commercial fishermen declined 
the store opened seasonally, and now it is closed year round.
    In my town, there is also a crab processor. The scale of 
this business has declined substantially in the last decade. In 
the early 1990's, this business employed at least 10 full-time 
employees. Today there are only four seasonal employees during 
the month of May. This illustrates the effects of a declining 
harvest from the Chesapeake Bay.
    These examples demonstrate the necessity of clean water to 
the fishing industry. We cannot say if the Chesapeake Bay 
Program has helped our industry. We do know that we are at a 
critical state, and that it is imperative that we continue to 
work toward a cleaner Chesapeake Bay to maintain a strong 
fishing and aquaculture industry.
    [The prepared statement of Mr. Wallace follows:]

    [GRAPHIC] [TIFF OMITTED] T6635.079
    
    Chairman Tom Davis. Thank you very much. We will start the 
questioning with Mr. Schrock.
    Mr. Schrock. If I understand correctly I think most Federal 
agencies not just the Army Corp of Engineers including the 
Chesapeake Bay Program and NOAA are not in favor of the 
introduction of the non-native oyster, I believe that is the 
case. I know you have strong opinions about that, but I think 
that is one of the roadblocks we are going to have, because I 
do not believe those two organizations want that either.
    Chairman Tom Davis. Who are the two?
    Mr. Schrock. NOAA and the Chesapeake Bay Program. Am I 
correct on that?
    Chairman Tom Davis. NOAA spoke in the last panel I thought 
that they were still evaluating it.
    Mr. Schrock. Can anybody answer that?
    Mr. Boesch. I think I could maybe give it a shot. Correct 
me if I am wrong.
    We tried when this issue was first raised I think the 
States, the Chesapeake Bay Program, the Federal agencies tried 
to take the first responsible step by asking the National 
Academy of Sciences for a review. There were eminent scientists 
from outside of this region, who sat, looked and listened to 
all the evidence and issues and its report basically says this: 
we do not feel that there is sufficient basis to go ahead with 
introduction now because of the uncertain risks. However, 
recognizing that there are severe problems with this industry, 
and with the oyster population ecologically, the recommendation 
was to undertake a 5-year aquaculture program that was based 
upon using a sterile non-reproducing oysters that could not 
escape cultivation and that would be coupled with a intense 
strategic research program.
    So, now we just have for the first time in the NOAA program 
appropriations for the research program. So, I would think the 
agencies would say that it is inconsistent with the advice 
given to us by the National Academy to make that decision now, 
rather we should make that decision after all the evidence, 
pros and cons and risks can be thoroughly evaluated.
    Mr. Schrock. What are the problems with introducing that 
foreign oyster here? Ms. Porter said that it tastes the same as 
the Chesapeake Bay oyster. You have to go some to do that but I 
believe you. What are the problems that are inherent in that?
    Mr. Boesch. Where there have been non-native oysters 
introduced for production purposes in other parts of the world, 
in some cases they have been successful. In other cases the 
oysters have not survived, so is not a given that the oysters 
will actually establish populations here. Second, there are 
some cases where oysters have caused--introduced oysters have 
caused some severe problems. Fouling of vessels, fouling of 
virtually everything out there. And then, of course we are 
concerned about with the populations of the non-native oysters 
might interfere or compete and interfere with the native oyster 
restoration. So, there are a number of others, but those are 
the kinds of questions just to give you a flavor, that the 
Academy listed, should be addressed.
    Mr. Schrock. So, the 5-year program began?
    Mr. Boesch. I think you would have to say it is just 
beginning.
    Mr. Schrock. Just beginning. For all of you, in your 
opinions, if Congress were to invest new dollars in the 
Chesapeake Bay restoration efforts, where do you think that 
they could best be spent?
    Ms. Pierno. Do you want me to start.
    Mr. Schrock. Go ahead.
    Mr. Wallace. Go ahead.
    Ms. Pierno. Go ahead.
    Mr. Wallace. Well, I said it before and I will say it 
again. We need to explore other aquaculture options. I mean the 
ariakensis is one, it has a lot of potential I mean we know it 
works. It has been in the water. There are risk, but at the 
same time if we can follow through in a controlled manor or 
eventually there are going to be private individuals that are 
tired of waiting and they are going to introduce it in an 
uncontrolled manner. At that point we stand a greater risk.
    The Federal money to followup on other species as well, I 
mean not only the ariakensis, but I am sure that there are 
other species we could work with. I know this year, NMS spawned 
some crabs and released them. So that is one important area, I 
think. It alleviates the pressure on the nature stocks. And the 
other is on the Eastern Shore, there is the agriculture 
industry and there is the fishing industry. And of course, the 
real estate end of business, but we need to focus on--
[laughter.]
    Mr. Schrock. You are not kidding. They are major player up 
there right.
    Mr. Wallace. Restoration of land and open spaces in that 
area to absorb the nutrients rather than what is happening now, 
in particular the past months where we have had so much rain. 
Everything that is on the land is in the water right now, and 
you see it, things are dying along the shoreline, we had a huge 
fish die off last week or about 2 weeks ago. So, to focus the 
money in both of those areas would be very important in my 
opinion.
    Ms. Pierno. I was just going to say, I think one area is 
the native oyster, unlike many other areas you have not spent 
enough resources to really meet the goal that was the 10-fold 
increase. And the reality is at our oyster farm here in 
Virginia, we are seeing some real progress, and I think we are 
learning an awful lot. And so, with some more resources 
dedicated to the new oyster restoration effort, I think that 
could be very productive. So, I do not think we want to give up 
on that.
    I do want to say in the report we talk about agriculture 
needing an additional $250 million annually to this region, the 
watershed to be able to do the kind of agricultural practices 
that are going to be needed to get to those reductions as well 
as the upgrades on wastewater treatment plants. So, I think 
those two as well as of course urban stormwater are going to 
take substantial dollars. And there is an opportunity through 
the Federal transportation bill to get some of those dollars, 
but they would be the top priorities.
    Mr. Schrock. We have to get the transportation bill out.
    Ms. Pierno. Yes.
    Mr. Boesch. I would just say that on the top of my list is 
agriculture. Agriculture is the largest source of both nitrogen 
and phosphorous to the bay. It is pretty clear that what really 
tipped this bay over in the 1960's as well as in many other 
coastal areas around the country, around the world is the 
expanded use of fertilizers in agriculture. It doubled and 
tripled within a couple of decades. And so, we need to learn to 
continue to have agriculture production but also minimize the 
downstream consequences.
    I actually think it is not going to be as costly as you 
might think if we aligned our agriculture policies, our farm 
policies with the environmental policies. As you know, this 
country spends billions, tens of billions of dollars each year 
for agricultural subsidies. Those subsidies are going to be 
going away probably because of world trade considerations, 
because we have already had rulings against this country in 
terms of subsidized agriculture.
    And one way that we can continue to keep that subsidization 
going--and other countries are moving this way rapidly--is 
toward environmental restoration, environmental improvement and 
conservation practices. So, if we could use some small part of 
that, that present Federal investment to get the outcomes and 
benefits, to do the kinds of things that we are already trying 
to do. For example, cover crops have proven to be enormously 
effective, but it costs the farmer money, they do not harvest 
the cover crop. If we can get some of that Federal investments 
to accomplish things like that, we can make this happen without 
a substantial increase in the total Federal expenditure.
    Mr. Schrock. Anyone else want to comment?
    Ms. Schaffner. Yes, I would like to comment.
    Mr. Schrock. Yes.
    Ms. Schaffner. Just quickly, I agree that probably the 
nutrient reduction strategies are something that is an easily 
identifiable target that we can work on. But I also want to 
continue to stress that what we need to maintain in this 
country is a process, a really effective process for linking 
science and policy development. We know what we have to do in 
the Chesapeake Bay, because this process has worked in the 
past, so we need to ensure that we maintain our leadership and 
ability to do that. So, maintaining a process of linking 
science and policy that helps us identify the best solutions is 
something that I will put at the top of my list.
    Mr. Schrock. Ms. Hofmann.
    Ms. Hofmann. I agree with all the comments that have gone 
on. I think we need to control agriculture and the Clean Air 
Act and all that. But one thing I would like to make a point 
here is that, that all works well, but one of the things that 
has to happen is to have capacity building in the community 
through education. And I am not talking about education in 
universities or whatever, education at primary grades, K-12 
type of approaches. And to implement a lot of the things that 
we have heard about this morning requires an informed public 
that understands why you need to do this. And my general 
impression from having worked with some education outreach 
activities is that is always one of the last things to be 
funded. And when it is funded, it is not typically funded at a 
level where you can do a whole lot of anything.
    And I would encourage you to put that into legislation, to 
put money in for educational activities and to target those 
toward Chesapeake Bay. I know that the Chesapeake Bay Program 
has a large outreach program, there are a lot of groups doing 
it at the Chesapeake Bay Foundation. But right now, that is not 
getting translated very well into the primary grades, which is 
where you really need to put the educational efforts.
    Mr. Schrock. Catch them in the cradle type thing.
    Ms. Hofmann. Exactly.
    Mr. Schrock. Mark, what is your No. 1 main challenge that 
the watermen face in this industry?
    Mr. Wallace. Regulations, I would have to say. I am 
involved in aquaculture as well as the commercial harvest of 
native species. I do both, and in aquaculture we are not seeing 
the regulations, but in the fishing industry every year, and 
when I stated about there being around 80 individuals, that is 
based on how many regulations we are facing in a particular 
year. The more proposed, the more members we have. But just the 
regulation of the industry and I would think it would be a lot 
of the fishermen's complaint that a lot of these regulations 
that come through really are not based on sound data that comes 
in.
    But that is the primary, the No. 1 thing that we face that 
is affecting our industry, is regulation, and declining 
harvest.
    Mr. Schrock. Regulation that is enacted that is not based 
on sound science?
    Mr. Wallace. Yes.
    Mr. Schrock. Do you agree with that? If you do not tell me.
    Mr. Boesch. Well, I cannot comment on the specifics of the 
regulations the gentleman is talking about. But I think we have 
in the Chesapeake Bay area evolved a fairly effective 
mechanism. Different in the different States, because of the 
structure; for example, Virginia has a marine resource 
commission. We do not have a commission we have a State agency 
in Maryland, where we are getting better and better scientific 
information into the decisionmaking. A good case in point is 
the blue crab problem. Blue crabs were declined substantially 
over the few years. Great alarm, the people who suffer mostly 
are the watermen, obviously. And we are all concerned about the 
state of the bay, and the role that plays. There is a direct 
relationship with the health of the bay and the blue crab 
population, and it has to do primarily through this linkage 
with the submerged aquatic vegetation. These are nursery areas 
for little blue crabs that come in. So, we need to restore 
those.
    But it is also clear with present populations we have to 
deal with the evidence is pretty clear that we had over 
harvesting, that we were not going to allow enough females to 
survive the process to go down in the bay right off here, and 
spawn and reproduce. So, we had to reduce the harvest pressure 
in order to allow enough females to survive to rebuild the 
stock, and the jury is still out. There are some signs, at 
least in the upper bay we have a bumper year for crabs. We 
cannot claim credit necessarily until we look at it all. But we 
are optimistic that we are going to see some recovery as a 
result of the regulations.
    To the folks that are regulated, I can understand that it 
is an onerous problem and it is something that they--it is a 
bottom line economic issue for them. But hopefully over the 
long run it will assure the vitality and sustainability of that 
resource in the future.
    Mr. Schrock. There is a big delicate balancing act there, 
you have some magnificent watermen up there who do their trade 
and do it very well. It is really tough. In July--oh, I am 
sorry.
    Ms. Porter. I would like to respond to that.
    Mr. Schrock. Sure.
    Ms. Porter. With due respect to Mark and the fact that 
working watermen feel that they are being regulated out of 
business, I think though Virginia Marine Resources Commission 
does an excellent job of studying the issues. They rely heavily 
on the scientific advice that comes from VIMS. And the 
regulators themselves do not want to keep regulating and 
regulating. But we are trying hard to preserve and restore the 
resource.
    Chairman Tom Davis. Let me just ask on that, if you put a 
moratorium or you put some significant limits on here over a 
multi year period, would the population come back of the 
oysters and crabs. In your opinion, is the water clear enough 
that at a given time and not allowing them to be fished or 
controlling that will that bring it back by itself or will we 
still have environmental problems would prohibited it?
    Ms. Schaffner. We definitely have a combinations of factors 
that are affecting these populations. One of the things that we 
do know about these coastal ecosystem is that they often have 
reservoirs of individual places in the bay, for example, where 
populations are doing better. Some parts of the lower bay are 
more healthy than some parts of the tributaries or the upper 
bay. So, there is an enormous capacity for some resilience in 
there and if everything lines up, you know, the stars and the 
moon and the sun all line up the right like it did with striped 
bass, when we put a fishing moratorium on, we got just the 
right combination of factors and the population just took off. 
If you happen to have a number of really wet years and nutrient 
loadings were really high, you might not see those kinds of 
recoveries right away.
    Mr. Schrock. You would have significant impact on the 
watermen and everybody and you would not necessarily get an 
impact if the weather was bad.
    Ms. Schaffner. Right, I think the systems are variable, so 
sometimes it takes a combination of everything lining up--the 
environmental conditions and the moratoriums--to work, but 
there is a lot of natural resilience in these populations and 
nothing has gone extinct in the bay. We do have residual 
populations that are there to provide seed material, if you 
will. So we still are positive about what we could see if we 
took the pressures off.
    Mr. Boesch. Could I just amend that, sorry.
    Mr. Schrock. Sure.
    Mr. Boesch. Just to say that it varies with the resource 
species you are interested in. Striped bass, we had a very 
small number of spawners left in the population, so a 
moratorium was the right thing to do. We had to let those folks 
survive. For blue crabs, we catch 150 million blue crabs out of 
the bay, every year. There is no shortage of female blue crabs, 
enough that the population is going to disappear and crash. We 
have to let more of those survive so it is not a moratorium, it 
is worrying about how many crabs can we catch, issues such as 
sanctuaries for spawning crabs. For oysters, it is a more 
challenging issue because we have mined out the basic habitat 
that they once lived on so that is not going to rebuild 
overnight. But there are things we will do; for example, in 
Maryland, we are adapting the management strategy so we do not 
move, transplant, diseased oysters from one part of the bay to 
the area where the disease is not. So, it varies with the 
species.
    Ms. Porter. I would like to speak to that about the 
oysters, also and I am not a scientist. And I do not want to 
misrepresent anything, but you know for 20 years the scientists 
have been trying to determine what durmo and MSX really are and 
how to remove them from the bay. And I guess they know what 
they really are, but they do not know how to get them out of 
the bay. So, the oysters are plagued by the two diseases.
    Mr. Schrock. Can you figure that out.
    Mr. Boesch. One of those diseases, I would submit and the 
one that is really devastating Virginia is MSX, is our own 
fault, it is an introduced species.
    Mr. Schrock. I was in the Navy.
    Mr. Wallace. We are not scientists.
    Mr. Boesch. MSX, it has a scientific name but very briefly 
throughout all of our community, watermen and scientists, we 
refer to these two diseases as MSX, which was a code name 
developed a long time ago, and durmo, just keep in mind MSX and 
durmo are two different diseases. MSX is particularly virulent 
in the highest parts of the bay. We have only occasionally, in 
dry years, an MSX problem in Maryland; we have the durmo 
problem. MSX, the work of VIMS, that group has done excellent 
work demonstrated convincingly using molecular ecology, 
molecular biology, the genes analysis. That this disease was 
introduced by a previous failed attempt to introduce another 
alien non-native species. A West Coast Japanese oyster that was 
living on the west coast was introduced here, it did not take 
off or survive but it introduced MSX, which was devastating to 
the native populations which had no evolutionary history or 
tolerance to that pathogen.
    Chairman Tom Davis. So, that gives appreciation for what we 
are trying to do now, this generation.
    Mr. Boesch. Absolutely.
    Mr. Schrock. I have one final question. Ms. Pierno, last 
month in July, the EPA announced that sewage treatment plants 
in Virginia and six other States and Washington, DC, were going 
to be required to reduce discharges of nitrogen and 
phosphorous. What is your opinion of that plan? It has really 
been brought to our attention in the last few days, because the 
town of Onancock on the Eastern Shore is trying to get re-
permitted for their sewage system and apparently they are going 
to be denied. And they are saying that they are going to have 
to pay $3.5 million for new treatment plants which is three 
times longer, three times more then their town budget every 
year. It is a real catch 22. What is your opinion of that plan 
that they have?
    Ms. Pierno. I think the plan that you are speaking of is 
the actual plan that goes beyond Virginia, it is for the entire 
border.
    Mr. Schrock. That is right.
    Ms. Pierno. And the reality is unfortunately the plan 
allows for further delay. We know; in fact, we received a 
letter from the former administrator Tracy Mehen that currently 
EPA has the authority and the responsibility to issue permits 
that control nitrogen and phosphorous. And so, we have simply 
been asking them to do that and certainly we recognize that in 
some of these plants--but I will say that most of the cost 
estimates that have come in for these upgrades have been as 
much as 50 percent higher then what the actual cost has been 
ultimately. And this is even seen with an upgrade that was done 
in Blue Plains.
    So, I think that what we need to understand when we hear 
these large numbers is that they are estimates, they are cost 
estimates and they are not always accurate. But the reality is 
in Maryland, we recognize that there are going to be small 
jurisdictions and areas that we are not going to be able to 
afford. They just do not have enough ratepayers to be able to 
pay for the cost of that upgrade. So, that is when the State 
stepped in now, with flush fee, a bill that was passed this 
legislation session, to provide those kinds of resources for 
the very kind of situation that Onancock is facing. So, we 
think it is an entire, you know, responsibility for States to 
look at this issue and to help those jurisdictions that need 
help. As far as the new--it is really not regulations that the 
EPA is putting out, unfortunately, again they are not 
requirements. It is another kind of advice, in fact on page in 
the small print at the bottom, it specifically says this does 
not have any additional requirements or regulatory authorities.
    So, the reality is it is more language saying we are going 
to gradually bring you along and we recognize that this is 
going to take years--and we do not have years. And the fact is, 
is that we recognize the it is very possible that there may be 
lawsuits and challenges once those permits are issued. So, we 
would say do it as soon as possible.
    Mr. Schrock. So that $2.50 a month per household fee is 
going to solve the problem Onancock has right now. So, they do 
not have to bear the brunt of the whole thing.
    Ms. Pierno. That is in Maryland.
    Mr. Schrock. Oh, I understand that. I only wish that the 
$2.50 Maryland fee could be applied to Onancock, VA.
    Ms. Pierno. I think it is a little bit more in Virginia. I 
think it is more like $4 a month they are looking at.
    Mr. Schrock. How much?
    Ms. Pierno. $4 a month that would actually pay for the 
Onancock upgrade as well as all the major wastewater treatment 
plans.
    Mr. Schrock. I just do not want Onancock sued to the point 
that they are going to--that just does not make no sense.
    Ms. Pierno. It is always a last----
    Mr. Schrock. Resort.
    Ms. Pierno [continuing]. Resort. We really take it very 
seriously, but unfortunately, we just do not feel that the EPA 
is taking this action as serious as they need to. They continue 
to allow expansions, new permits, without having those 
reductions in place, we just feel that is unacceptable.
    Mr. Schrock. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you. I just wonder if somebody 
could describe for me--the bay, obviously the water is 
consistently moving into the bay and out to sea. How long it 
takes with stuff coming into the bay, it is point it is non-
point, it is a lot of different things in the atmosphere. I am 
just trying to get a macro picture of what it takes and how 
long it takes the water to flush out of there once it enters, 
does anybody have any idea, or does it differ in different 
places? Does it depend on the season, and the temperature. 
Anybody have the answer.
    Ms. Hofmann. I think I can make an attempt to answer that. 
And being a good academic, it would not be a firm answer.
    Chairman Tom Davis. Politicians do not give firm answers 
either.
    Ms. Hofmann. How you estimate residence time in a system 
like the Chesapeake Bay is very difficult to do. And what you 
estimate residence time for is somewhat dependent on the 
property you are looking at. If you look at something like 
salinity, of the numbers that I have seen for that, the 
flushing time in the bay for salt is on the order of a few 
months, like 3 to 4 months perhaps. So, if you put salt at the 
entrance of the Chesapeake Bay right out here you would expect 
it to go around, come out the bay and be out and done in about 
3 months.
    All right, that is one example. All right, that is an 
average number. All right, in years when there is a drought 
that number is going to be a whole lot longer. Years with a lot 
of freshwater inflow that number will be a whole lot shorter. 
So, it is not just dependent on the environmental conditions, 
that it is also dependent on climatic cycles. That is one issue 
with the Chesapeake Bay is that it responds to large global 
climate cycles. Like the El Nino that we have all heard a lot 
about, and that all has to be factored into when you start 
worrying about how long water is going to stay in the bay.
    Chairman Tom Davis. Let me ask Mr. Wallace, you are here 
representing a group of people who have for years made their 
living off the water and you see the stock declining, the 
demand has not declined at all, and probably the demand for 
fish and crabs and oysters has probably never been higher. But 
we just do not have the kind of stock. What do moratoriums do 
to you and how do you view this long term? You said there was 
some success when they deployed it; on the other hand, there is 
no guarantee it works sometimes, depending on other factors.
    Mr. Wallace. Well, if you take the bay, for example, the 
only moratorium that has really brought a stock back is the 
rock fish. If we were to put a moratorium on the oysters, in my 
opinion and a lot of fishermen, it is not going to help because 
while harvesting has been an after-effect, it was not the 
initial result of the decline. And it is the same with the 
crabs, which is one of the fisheries I am involved with. If we 
were to put a moratorium on it, there is still so many other 
factors; you have an over-abundance of predators from the rock 
fish, croakers and other finfish that are in the water. You 
have a lack of grass beds.
    So, it is an imbalance that is going there. As we manage 
things, we need to look at it as a whole. Moratoriums on a 
particular species are not necessarily going to work because 
they do not look at the other factors that are affecting the 
species.
    Chairman Tom Davis. Is there any aquatic life that are 
doing very, very well in this environment; while some have 
decreased, some have increased, or is it because of the dark 
zones that you have, the dead zones, everything is dying?
    Ms. Schaffner. Actually, there is a lot of opportunistic 
organisms in the bay. They are benefiting from--they are not 
things that you want to eat. Sea squirts that foul the bottom 
of boats. Jellyfish, these are things that you would not want 
to harvest, but there are these populations. A lot of them 
actually are suspension feeders that seem to be perhaps 
capitalizing on the fact that the native oyster populations are 
reduced, for example. We have a lot of production out there and 
there are things that can use it. They are not things we want 
to harvest.
    Chairman Tom Davis. Not things we want to increase though, 
right.
    Ms. Schaffner. It is not clear whether or not they benefit 
the bay. There is a little story about what is going on up in 
Maryland where this mussel seems to have come in and might be 
in some way playing a role in water clarity, gives you an 
example that we do not know what roles some of these organisms 
play. Since they are not commercial species, we do not get a 
lot of funding to study them.
    Chairman Tom Davis. All right.
    Ms. Porter. Congressman Davis.
    Chairman Tom Davis. Yes, ma'am.
    Ms. Porter. I do not know how much you know about 
regulations in the fishing industry, but sanctuaries are an 
important regulatory method that is being used a great deal. 
Where you harvest, where you cannot harvest.
    Chairman Tom Davis. You keep some areas secure.
    Ms. Porter. That is correct. So, that is like a mini-
moratorium I guess.
    Mr. Boesch. If I could just add to that comment in response 
to your question. There are some species, some stock, things 
that we care about like striped bass, the rock fish that are 
doing very well. That has been a real success story, and there 
are others. For example, the largest volume fishery--mass, 
weight, fishery in the Chesapeake Bay is ask my students 
menhaden. And the menhaden catches have over the long term been 
out there. There are some downward trends now, and there are 
some folks who think that is because we fertilized the bay, and 
we grow more of this phyto plankton that the menhaden eat. But 
to bring it back home to the comments that my colleagues at the 
end of the table indicate, all of these things are connected. 
So now we have a concern about whether there is sufficient 
menhaden in the bay to feed striped bass.
    And so, this has led the bay program--in the Chesapeake 
2000 agreement, one of the things we have not been able to talk 
about is this commitment to manage the fishery resources as an 
ecosystem, just as Mr. Wallace indicated. So, that we think 
about what are the implications of managing one stock to the 
other. We think about what is the consequence of the health of 
the environment, sanctuary areas, for those fishery stocks. And 
that is a grand challenge but that is one that the bay program 
has taking on as one of its strategic goals.
    Chairman Tom Davis. Well, the foundation in this testimony 
noted that the benchmark for a healthy bay score of 100 is 
based on what Representative Schrock described like the idea of 
John Smith's first visit to the bay in the 17th century. I 
think we acknowledge that the return to that State is probably 
unachievable.
    Ms. Pierno. Right, no, we are looking at a 70 as far as our 
mark.
    Chairman Tom Davis. Is a 70 achievable?
    Ms. Pierno. It is if we do the things that we are committed 
to doing and put the resources forward.
    Chairman Tom Davis. Where are we today, if not a 70 today, 
how would you rate it today?
    Ms. Pierno. Well, the state of the bay report says it is a 
27, which I think in anybody's book is an F. I mean it is 
failing and we are clearly far from reaching that 70 goal, but 
I think the efforts underway are clearly not sufficient. We 
have made some progress, but we need to do much, much more.
    Chairman Tom Davis. What we did is stop the bleeding to 
some extent?
    Ms. Pierno. Absolutely, and there has been some small steps 
in progress but again when you look at the constant increase in 
population, development, and loss of very important buffers and 
resources, we need to continue to do more in order to just keep 
up--more cars on the road, more air pollution, pollution coming 
from other sources even outside the watershed.
    Chairman Tom Davis. Mr. Murphy, in our previous panel, said 
the No. 1 thing that you could do though on the point pollution 
that is entering, is we could do a better job with that. It is 
expensive, but do you agree with that?
    Ms. Pierno. Absolutely, it is relatively cost effective 
because you really get the results, you can measure it. 
Agriculture, Tom Horton once wrote it is a very leaky system 
and it is really difficult to manage and to really get the same 
kind of results. You certainly can measure from height. We do 
know that cover crops and many of the BMPs are very effective. 
But, certainly upgrading our sewage treatment plants and we 
have proven technology, we know how to do it. It is just a 
matter of spending the resources and moving forward quickly.
    Chairman Tom Davis. And also, you have everybody, every 
suburban homeowner, that wants to put a deck or something on 
their back porch wonders why they are being singled out. What 
effect; of course this is an accumulative effect, but when you 
are talking the outflow is coming out in the systems that is a 
very large measurable one setting item, and you can see the 
results.
    Ms. Pierno. Absolutely.
    Chairman Tom Davis. And of course the weather.
    Ms. Pierno. And in fact in Virginia you would meet 70 
percent of your reduction load by upgrading your wastewater 
treatment plants to the best technology. So, that is--and of 
course you need to continue to work on agriculture.
    Chairman Tom Davis. It is expensive, but politically 
probably the easiest one to do.
    Ms. Pierno. Yes.
    Chairman Tom Davis. Because you are not impacting the 
watermen or the farmers or the developers.
    Ms. Pierno. That is right.
    Chairman Tom Davis. I appreciate that. Is there anyone that 
wants to add? This has been very, very helpful for us. Because 
you know we have different committees with different 
jurisdictions. Our committee has an oversight of almost 
everything in the government and all of Federal/State issues, 
we have the jurisdictions. These kinds of issues we can deal 
with effectively, that is us. We need to deal with the 
appropriators, but this has been very, very helpful.
    Mr. Boesch. If I could just say one thing since you invited 
us to. There is also, you know, our senators that requested a 
Government Accountability Office evaluation of this, which I 
think is fine, and your committee and the like. I really hope 
that we really focus on--I mean we have some issues, some 
technical issues with monitoring and modeling. These are not 
show stoppers, they are important to get right so that we can 
deal with this, as you indicated.
    Chairman Tom Davis. There is a large consensus of what we 
need to do from everybody here.
    Mr. Boesch. What it really should be focusing on is how do 
we get there. How do we get to achieve these goals.
    Chairman Tom Davis. OK. Well thank you all very much. This 
meeting is adjourned.
    [Whereupon, at 12:38 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6635.080

[GRAPHIC] [TIFF OMITTED] T6635.081

[GRAPHIC] [TIFF OMITTED] T6635.082

[GRAPHIC] [TIFF OMITTED] T6635.083

[GRAPHIC] [TIFF OMITTED] T6635.084

[GRAPHIC] [TIFF OMITTED] T6635.085

[GRAPHIC] [TIFF OMITTED] T6635.086

[GRAPHIC] [TIFF OMITTED] T6635.087

[GRAPHIC] [TIFF OMITTED] T6635.088

[GRAPHIC] [TIFF OMITTED] T6635.089

[GRAPHIC] [TIFF OMITTED] T6635.090

[GRAPHIC] [TIFF OMITTED] T6635.091

[GRAPHIC] [TIFF OMITTED] T6635.092

[GRAPHIC] [TIFF OMITTED] T6635.093

[GRAPHIC] [TIFF OMITTED] T6635.094

[GRAPHIC] [TIFF OMITTED] T6635.095

[GRAPHIC] [TIFF OMITTED] T6635.096

[GRAPHIC] [TIFF OMITTED] T6635.097

[GRAPHIC] [TIFF OMITTED] T6635.098

[GRAPHIC] [TIFF OMITTED] T6635.099

[GRAPHIC] [TIFF OMITTED] T6635.100

[GRAPHIC] [TIFF OMITTED] T6635.101

[GRAPHIC] [TIFF OMITTED] T6635.102

[GRAPHIC] [TIFF OMITTED] T6635.103

[GRAPHIC] [TIFF OMITTED] T6635.104

[GRAPHIC] [TIFF OMITTED] T6635.105

[GRAPHIC] [TIFF OMITTED] T6635.106

[GRAPHIC] [TIFF OMITTED] T6635.107

[GRAPHIC] [TIFF OMITTED] T6635.108

[GRAPHIC] [TIFF OMITTED] T6635.109

[GRAPHIC] [TIFF OMITTED] T6635.110

[GRAPHIC] [TIFF OMITTED] T6635.111

[GRAPHIC] [TIFF OMITTED] T6635.112

[GRAPHIC] [TIFF OMITTED] T6635.113

[GRAPHIC] [TIFF OMITTED] T6635.114

[GRAPHIC] [TIFF OMITTED] T6635.115

[GRAPHIC] [TIFF OMITTED] T6635.116

[GRAPHIC] [TIFF OMITTED] T6635.117

[GRAPHIC] [TIFF OMITTED] T6635.118

[GRAPHIC] [TIFF OMITTED] T6635.119

[GRAPHIC] [TIFF OMITTED] T6635.120

[GRAPHIC] [TIFF OMITTED] T6635.121

[GRAPHIC] [TIFF OMITTED] T6635.122

[GRAPHIC] [TIFF OMITTED] T6635.123

[GRAPHIC] [TIFF OMITTED] T6635.124

[GRAPHIC] [TIFF OMITTED] T6635.125

[GRAPHIC] [TIFF OMITTED] T6635.126

[GRAPHIC] [TIFF OMITTED] T6635.127

[GRAPHIC] [TIFF OMITTED] T6635.128

[GRAPHIC] [TIFF OMITTED] T6635.129

[GRAPHIC] [TIFF OMITTED] T6635.130

[GRAPHIC] [TIFF OMITTED] T6635.131

[GRAPHIC] [TIFF OMITTED] T6635.132

[GRAPHIC] [TIFF OMITTED] T6635.133

[GRAPHIC] [TIFF OMITTED] T6635.134

[GRAPHIC] [TIFF OMITTED] T6635.135

[GRAPHIC] [TIFF OMITTED] T6635.136

[GRAPHIC] [TIFF OMITTED] T6635.137

[GRAPHIC] [TIFF OMITTED] T6635.138

[GRAPHIC] [TIFF OMITTED] T6635.139

[GRAPHIC] [TIFF OMITTED] T6635.140

[GRAPHIC] [TIFF OMITTED] T6635.141

[GRAPHIC] [TIFF OMITTED] T6635.142

[GRAPHIC] [TIFF OMITTED] T6635.143

[GRAPHIC] [TIFF OMITTED] T6635.144

[GRAPHIC] [TIFF OMITTED] T6635.145

[GRAPHIC] [TIFF OMITTED] T6635.146

[GRAPHIC] [TIFF OMITTED] T6635.147

[GRAPHIC] [TIFF OMITTED] T6635.148

[GRAPHIC] [TIFF OMITTED] T6635.149

[GRAPHIC] [TIFF OMITTED] T6635.159

[GRAPHIC] [TIFF OMITTED] T6635.160

[GRAPHIC] [TIFF OMITTED] T6635.161

[GRAPHIC] [TIFF OMITTED] T6635.162

[GRAPHIC] [TIFF OMITTED] T6635.163

[GRAPHIC] [TIFF OMITTED] T6635.164

[GRAPHIC] [TIFF OMITTED] T6635.165

[GRAPHIC] [TIFF OMITTED] T6635.166

[GRAPHIC] [TIFF OMITTED] T6635.167

[GRAPHIC] [TIFF OMITTED] T6635.168

[GRAPHIC] [TIFF OMITTED] T6635.169

                                 <all>

</pre></body></html>
